<html>
<title> - NORTH KOREA POLICY ONE YEAR AFTER HANOI</title>
<body><pre>[Senate Hearing 116-240]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-240
                                                        
                           NORTH KOREA POLICY 
                          ONE YEAR AFTER HANOI

=======================================================================

                                 HEARING


                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIA,
                     THE PACIFIC, AND INTERNATIONAL
                          CYBERSECURITY POLICY


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             FEBRUARY 25, 2020

                               __________


       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-984 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    TIM KAINE, Virginia
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
TODD YOUNG, Indiana                  JEFF MERKLEY, Oregon
TED CRUZ, Texas                      CORY A. BOOKER, New Jersey
DAVID PERDUE, Georgia
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        
MARCO RUBIO, Florida                 EDWARD J. MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  TOM UDALL, New Mexico


                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Gardner, Hon. Cory, U.S. Senator From Colorado...................     1
    Prepared Statement...........................................     3

Markey, Hon. Edward J., U.S. Senator From Massachusetts..........     4
    Prepared Statement...........................................     6

King, Hon. Robert R., Senior Adviser, Center for Strategic and 
  International Studies, Washington, DC..........................     7
    Prepared Statement...........................................     9

Klingner, Bruce, Senior Research Fellow, Northeast Asia, The 
  Heritage Foundation, Washington, DC............................    13
    Prepared Statement...........................................    15

Terry, Dr. Sue Mi, Senior Fellow, Korea Chair, Center for 
  Strategic and International Studies, Washington, DC............    21
    Prepared Statement...........................................    23

                                 (iii)

 
                           NORTH KOREA POLICY 
                          ONE YEAR AFTER HANOI

                              ----------                              


                        TUESDAY, FEBRUARY 25, 2020

                           U.S. Senate,    
Subcommittee on East Asia, The Pacific, and
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:21 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner [presiding], Perdue, Young, and 
Markey.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. I call this hearing to order.
    Let me welcome all of you to the sixth hearing of the 
Senate Foreign Relations Subcommittee on East Asia, The 
Pacific, and International Cybersecurity Policy in the 116th 
Congress.
    This is our second subcommittee hearing on North Korea in 
this Congress, demonstrating the importance the subcommittee 
places on this critical national security issue.
    Let me begin by noting my sincere disappointment by the 
Administration's decision to not provide a witness for today's 
hearing despite repeated requests. This committee has the lead 
oversight role on the conduct of our nation's foreign policy, 
and the Administration is obligated to testify in a public 
setting in order for us to effectively fulfill our 
constitutional duties as a co-equal branch of government. Rest 
assured, I will continue raising this issue with our 
administration colleagues.
    It should now be abundantly clear to even the casual 
observer that summit diplomacy over the past 18 months has 
failed to convince Kim Jong-un to abide by international law, 
but has only lessened the pressure on Pyongyang to 
denuclearize. Our sanctions policy has been inconsistent, which 
has left significant enforcement gaps that North Korea and its 
enablers continue to exploit. The cancellation and downgrading 
of our military exercises have weakened our defense posture in 
East Asia, which has only emboldened the mad man in Pyongyang.
    Time is not on our side to deter the growing threat from 
Kim Jong-un. It is time to go back to plan A on North Korea. 
The successful policy of maximum pressure that was adopted 
early in the Trump administration but since abandoned in an 
earnest effort of diplomatic engagement with Pyongyang. We need 
renewed focus to achieve the complete, verifiable, and 
irreversible denuclearization of the Kim regime to enhance our 
military presence to deter future aggression and to strengthen 
key U.S. alliances in East Asia.
    First, we must immediately enforce sanctions against 
Pyongyang and its enablers. These are sanctions that are 
already legislated under U.S. law. The administration should be 
prepared to seek a new United Nations Security Council 
resolution in the event of another ICBM launch. President Trump 
stated in June 2018 that he was holding off on imposing 300 
sanctions on entities in hopes of diplomacy succeeding. The 
Treasury Department should roll out these designations without 
delay.
    Congress should pass the Gardner-Markey Leverage to Enhance 
Effective Diplomacy, or LEED, Act which is a comprehensive 
bipartisan bill to economically and diplomatically pressure 
North Korea and its enablers through the imposition of 
sanctions and other policy measures. The legislation also calls 
on North Korea to immediately return the USS Pueblo, a U.S. 
Navy research ship illegally seized in international waters in 
January 1968 and is currently displayed in Pyongyang as an 
anti-American propaganda attraction.
    Second, we must immediately enhance our military posture in 
East Asia. The United States and the Republic of Korea should 
resume full-scale bilateral military exercises similar in size 
and scope to those before summit diplomacy began in 2018. We 
should swiftly conclude negotiations on the U.S.-ROK special 
measures agreement, the SMA, which would provide strategic 
stability on the Korean Peninsula and strengthen the U.S.-ROK 
alliance. Now is not the time for excessive demands that only 
serve to exacerbate tensions and uncertainty within the 
alliance which only benefits our adversaries.
    The Administration should redouble efforts to promote 
trilateral security cooperation between the United States, the 
Republic of Korea, and Japan which has suffered badly due to 
renewed tensions over historical disagreements. We should 
continue to make clear to Seoul and Tokyo that painful events 
of the past should not preclude cooperation on shared threats, 
most prominently the threat from North Korea.
    Third, we must double down on diplomacy to isolate 
Pyongyang internationally. The Administration should reengage 
in intense global diplomatic efforts to persuade other nations 
to diplomatically and economically pressure North Korea to 
comply with international law, including downgrading U.S. 
diplomatic and economic relations with any country that fails 
to take appropriate measures with regard to North Korea and 
reducing or terminating U.S. assistance to any country that 
fails to take appropriate measures with regard to North Korea, 
consistent with international law.
    And finally, the Administration should intensify, not 
downplay efforts to highlight Pyongyang's human rights abuses 
at the United Nations and other appropriate international fora.
    The administration should also belatedly appoint a 
dedicated special envoy on North Korean human rights issues at 
the State Department as authorized by U.S. law.
    The Congress will stand with the Administration to achieve 
the goal of a denuclearized North Korea that is prosperous, is 
no longer a threat to its neighbors, and does not abuse the 
human rights of its own people. But, unfortunately, we remain 
very far from that goal today.
    It is time we finally wised up to the Kim family playbook 
of mendacity and deception that has spanned generations. United 
States law with regard to North Korea established through 
section 402 of the North Korea Sanctions and Policy Enhancement 
Act of 2016 is clear that there can be no sanctions relief for 
North Korea unless the regime makes significant progress toward 
completely, verifiably, and irreversibly dismantling all of its 
nuclear, chemical, biological, and radiological weapons 
programs, including all programs for the development of systems 
designed in whole or in part for the delivery of such weapons. 
Any comprehensive deal with North Korea must ultimately meet 
this high bar established in law.
    [The prepared statement of Chairman Cory Gardner follows:]

              Prepared Statement of Chairman Cory Gardner

    This hearing will come to order. Let me welcome you all to the 
sixth hearing of the Senate Foreign Relations Subcommittee on East 
Asia, the Pacific, and International Cybersecurity Policy in the 116th 
Congress. This is our second subcommittee hearing on North Korea in 
this Congress, demonstrating the importance the subcommittee places on 
this critical national security issue.
    Let me begin by noting my sincere disappointment by the 
Administration's decision to not provide a witness for today's hearing, 
despite repeated requests. This committee has the lead oversight role 
on the conduct of our nation's foreign policy, and the Administration 
is obligated to testify in a public setting in order for us to 
effectively fulfill our Constitutional duties as a co-equal branch of 
government. Rest assured, I will continue raising this issue with our 
Administration colleagues.
    It should now be abundantly clear to even a casual observer that 
``summit diplomacy'' over the past 18 months has failed to convince Kim 
Jong Un to abide by international law, but has only lessened the 
pressure on Pyongyang to denuclearize. Our sanctions policy has been 
inconsistent, which has left significant enforcement gaps that North 
Korea and its enablers continue to exploit. The cancellation and 
downgrading of our military exercises have weakened our defense posture 
in East Asia, which has only emboldened the madman in Pyongyang.
    Time is not on our side to deter the growing threat from Kim Jong 
Un. It is time to go back to Plan A on North Korea: the successful 
policy of ``maximum pressure'' that was adopted early in the Trump 
administration, but since abandoned in an earnest effort of diplomatic 
engagement with Pyongyang.
    We need renewed focus achieve the complete, verifiable, and 
irreversible denuclearization of the Kim regime, to enhance our 
military presence to deter future aggression, and to strengthen key 
U.S. alliances in East Asia.
    First, we should immediately enforce sanctions against Pyongyang 
and its enablers--these are sanctions that are already legislated under 
U.S. law. The Administration should be prepared to seek a new United 
Nations Security Council Resolution in the event of another ICBM 
launch. President Trump stated in June 2018 that he was holding off on 
imposing ``300 sanctions'' on entities, in hopes of diplomacy 
succeeding. The Treasury Department should roll out these designations 
without delay.
    Congress should pass the Gardner-Markey Leverage to Enhance 
Effective Diplomacy (LEED) Act, comprehensive bipartisan legislation to 
economically and diplomatically pressure North Korea and its enablers 
through the imposition of sanctions and other policy measures. The 
legislation also calls on North Korea to immediately return the USS 
Pueblo, a U.S. Navy research ship illegally seized in international 
waters in January 1968 and is currently displayed in Pyongyang as an 
anti-American propaganda attraction.
    Second, we must immediately enhance our military posture in East 
Asia. The United States and the Republic of Korea (ROK) should resume 
full-scale bilateral military exercises, similar in size and scope to 
those before ``summit diplomacy'' began in 2018.
    We should swiftly conclude negotiations on the U.S.-ROK Special 
Measures Agreement (SMA), which would provide strategic stability on 
the Korean Peninsula and strengthen the U.S.-ROK alliance. Now is not 
the time for excessive demands that only serve exacerbate tensions and 
uncertainty within the alliance, which only benefits our adversaries.
    The Administration should re-double efforts to promote trilateral 
security cooperation between the United States, the Republic of Korea, 
and Japan, which has suffered badly due to renewed tensions over 
historical disagreements. We should continue to make clear to Seoul and 
Tokyo that painful events of the past should not preclude cooperation 
on shared threats, most prominently the threat from North Korea.
    Third, we must double down on diplomacy to isolate Pyongyang 
internationally. The Administration should re-engage in intense global 
diplomatic efforts to persuade other nations to diplomatically and 
economically pressure North Korea to comply with international law, 
including downgrading U.S. diplomatic and economic relations with any 
country that fails to take appropriate measures with regard to North 
Korea, and reducing or terminating U.S. assistance to any country that 
fails to take appropriate measures with regard to North Korea, 
consistent with international law.
    Finally, the Administration should intensify--not downplay--efforts 
to highlight Pyongyang's human rights abuses at the United Nations and 
other appropriate international fora. The Administration should also 
belatedly appoint a dedicated Special Envoy on North Korean human 
rights issues at the State Department, as authorized by U.S. law.
    The Congress will stand with the Administration to achieve the goal 
of a denuclearized North Korea that is prosperous, is no longer a 
threat to its neighbors, and does not abuse the human rights of its own 
people.
    But unfortunately, we remain very far from that goal today. It is 
time we finally wised up to the Kim family playbook of mendacity and 
deception that has spanned generations.
    United States law with regard to North Korea--established through 
Section 402 of the North Korea Sanctions and Policy Enhancement Act of 
2016--is clear that there can be no sanctions relief for North Korea 
unless the regime makes ``significant progress toward completely, 
verifiably, and irreversibly dismantling all of its nuclear, chemical, 
biological, and radiological weapons programs, including all programs 
for the development of systems designed in whole or in part for the 
delivery of such weapons.'' Any comprehensive deal with the North Korea 
must ultimately meet this high bar.
    Today, we have a distinguished panel of experts with us to chart a 
path forward. With that, I will turn it over to Senator Markey.

    Senator Gardner. Today we have a very distinguished panel 
of experts with us to chart a path forward.
    And with that, I will turn it over to Senator Markey for 
his opening comments.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, and thank you so 
much for this very important hearing.
    Towards the end of last year, we thought we might now be 
talking about Kim Jong-un's promised Christmas gift in the form 
of a long-range ballistic missile test or, worse, a nuclear 
test explosion. We can count our blessings that the Kim regime 
did not turn to either type of provocation. However, our 
collective sigh of relief may be short-lived if President Trump 
and Kim Jong-un, both known for erratic behavior, experience a 
public breakup in 2020.
    In his New Year's address, Chairman Kim kept the doors 
slightly ajar to diplomacy while warning he would soon unveil a 
new strategic weapon if talks with the United States do not 
produce a deal to his liking. The stakes could not be higher.
    And that is why I am dismayed that the Trump administration 
has yet again failed to produce a single official to testify in 
open hearing on the North Korea challenge. The Administration's 
choice to snub this subcommittee, while making a top official 
available to participate in a think tank event tomorrow, shows 
open disdain for our oversight role as well as for the American 
people which we represent.
    Nonetheless, I echo the chairman in his praise for our 
three distinguished witnesses joining us today, two of whom, 
Dr. Terry and Ambassador King, completed their studies in 
Massachusetts, the brain state. So we thank you for being here.
    Specifically, I look forward to hearing, one, how can we 
jump start stalled talks with North Korea 1 year after Hanoi to 
guard against a return to fire and fury?
    Two, how can we work to plug the leaks in the multilateral 
sanctions regime, leaks that fuel North Korea's illicit weapons 
of mass destruction programs?
    And three, how can we give voice to North Korea's oppressed 
and nearly one in two citizens who go to bed hungry night?
    Diplomacy has produced modest gains. Chairman Kim has not 
fired an intercontinental ballistic missile or conducted a 
nuclear test for over 2 years. Additionally, the remains of 
dozens of foreign U.S. Korean War veterans are back home to be 
put to their final rest, and tensions at the demilitarized zone 
have, thankfully, cooled.
    However, since Hanoi, North Korea has more material for 
nuclear weapons. Since Hanoi, North Korea has more confidence 
in their sea- and land-based ballistic missiles that put the 
continental United States, our allies, and partners in their 
crosshairs. And since Hanoi, North Korea has rattled our allies 
by conducting more short-range ballistic missile tests, of 
which President Trump unacceptably remarked that he has no 
problem with them.
    That is why President Trump must put pen to paper and 
codify that the United States will not tolerate any ballistic 
missile tests by North Korea of any range, and he can show he 
values the contributions of South Koreans rather than knocking 
their Oscar-winning film ``Parasite'' by abandoning his attempt 
to shake down South Korea through a renegotiated special 
measures agreement.
    The President can also position his diplomats for success 
by calling for Senate consideration of the LEED Act, 
reintroduced by Senator Gardner and myself last June. The LEED 
Act will strengthen our diplomatic negotiating position by 
targeting those entities that have aided North Korean sanctions 
evasion.
    And we must not return to the charged rhetoric of fire and 
fury. A war, much less a nuclear war, would lead to 
unfathomable loss of life. Threats are not an alternative to a 
negotiated agreement.
    And that is why I plan to reintroduce my No 
Unconstitutional War Against North Korea Act in the coming 
weeks. Congress must stand up and speak out against President 
Trump taking any action against North Korea that mirrors his 
unauthorized assassination of Iran's Qassem Soleimani. In war 
and peace and in all things, the President is not above the 
law. The United States Congress must play a role in these 
issues because they affect every single person who we 
represent.
    So I thank you, Mr. Chairman, again for this very important 
hearing, and I yield back.
    [The prepared statement of Senator Edward J. Markey 
follows:]

             Prepared Statement of Senator Edward J. Markey

    Thank you, Mr. Chairman. Towards the end of last year, we thought 
we might now be talking about Kim Jong-un's promised ``Christmas 
gift,'' in the form of a long-range ballistic missile test, or worse, a 
nuclear-test explosion.
    We can count our blessings that the Kim regime did not turn to 
either type of provocation. However, our collective sigh of relief may 
be short-lived if President Trump and Kim Jong-un--both known for 
erratic behavior--experience a public breakup in 2020. In his New 
Year's address, Chairman Kim kept the door slightly ajar to diplomacy 
while warning he would soon unveil a ``new strategic weapon'' if talks 
with the United States do not produce a deal to his liking.
    The stakes could not be higher. That is why I am dismayed that the 
Trump Administration has, yet again, failed to produce a single 
official to testify in open hearing on the North Korea challenge. The 
Administration's choice to snub this subcommittee while making a top 
official available to participate in a think-tank event tomorrow shows 
open disdain for our oversight role as well as for the American people 
we represent.
    Nonetheless, I echo the Chairman in his praise for our three 
distinguished witnesses joining us here today, two of whom--Dr. Terry 
and Ambassador King--completed their studies in Massachusetts, the 
``brain state!''
    Specifically, I look forward to hearing:

  <bullet> First, how can we jump-start stalled talks with North Korea 
        1 year after Hanoi to guard against a return to ``fire and 
        fury?''

  <bullet> Second, how can we work to plug the leaks in the 
        multilateral sanctions regime, leaks that fuel North Korea's 
        illicit weapons of mass destruction programs?

  <bullet> And, third, how can we give voice to North Korea's oppressed 
        and nearly one-in-two citizens who go to bed hungry every 
        night?

    Diplomacy has produced modest gains. Chairman Kim has not fired an 
intercontinental ballistic missile (ICBM) or conducted a nuclear test 
for over 2 years. Additionally, the remains of dozens of fallen U.S. 
Korean war veterans are back home to be put to their final rest. And 
tensions at the de-militarized zone thankfully have cooled.
    However, since Hanoi, North Korea has more material for nuclear 
weapons. Since Hanoi, North Korea has more confidence in their sea- and 
land-based ballistic missiles that put the continental United States, 
our allies, and partners in the crosshairs. And since Hanoi, North 
Korea has rattled our allies by conducting more short-range ballistic 
missile tests, of which President Trump unacceptably remarked that he 
``has no problem'' with.
    That is why President Trump must put pen to paper and codify that 
the United States will not tolerate any ballistic missile test by North 
Korea of any range. And he can show he values the contributions of 
South Koreans--rather than knocking their Oscar-winning film, 
``Parasite''--by abandoning his attempt to shake down South Korea 
through a re-negotiated Special Measures Agreement.
    The President can also position his diplomats for success by 
calling for Senate consideration of the LEED Act, re-introduced by 
Senator Gardner and myself last June. The LEED Act will strengthen our 
diplomatic negotiating position by targeting those entities that have 
aided North Korean sanctions evasion.
    And we must not return to the charged rhetoric of ``fire and 
fury.'' A war, much less a nuclear war, would lead to unfathomable loss 
of life. Threats are not an alternative to a negotiated agreement.
    That is why I plan to reintroduce my ``No Unconstitutional War 
Against North Korea Act'' in the coming weeks. Congress must stand up 
and speak out against President Trump taking any action against North 
Korea that mirrors his unauthorized assassination Iran's Qassem 
Soleimani. In war and peace--and in all things--the President is not 
above the law.
    Thank you Mr. Chairman.

    Senator Gardner. Thank you, Senator Markey.
    Ambassador King, I will begin with you.
    But, Senator Markey, I will just point out not everybody 
can get into Colorado State University. So I understand what 
happened here. So thank you.
    [Laughter.]
    Senator Gardner. Ambassador King, we will begin with you, 
our first witness, obviously, the Honorable Bob King who 
currently serves as Senior Adviser to the Korea Chair at the 
Center for Strategic and International Studies. From November 
2009 to January 2017, Ambassador King served as Special Envoy 
for North Korea human rights issues at the State Department 
where he led U.S. efforts to press North Korea for progress on 
its human rights, the U.S. humanitarian work in North Korea, 
and the treatment of U.S. citizens being held in the North.
    Ambassador King, thank you for your service. Thank you for 
your tireless advocacy, and we are honored that you are here 
before this committee today. Please limit your remarks to 5 
minutes, but you may proceed.

 STATEMENT OF HON. ROBERT R. KING, SENIOR ADVISER, CENTER FOR 
      STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Ambassador King. Thank you very much, Mr. Chairman, Ranking 
Member Markey, members of the committee. I appreciate the 
invitation to appear today in light of North Korean nuclear and 
missile testing and, its militant policy statements. It is 
important, however, that we not lose sight of human rights in 
American policy toward North Korea.
    I want to thank you and the committee for your leadership 
in reauthorization of the North Korean Human Rights Act of 
2017. This was the third time that this key legislation was 
extended by Congress since it was first adopted in 2004. In 
this era of strong partisanship, it is noteworthy that the bill 
was approved by unanimous consent in the Senate and by a vote 
of 415 to 0 in the House. The programs authorized by this act 
are important for policy on North Korea.
    One of the most important provisions is the creation of the 
Special Envoy on North Korea Human Rights Issues, the position 
that I held for 7 years. The reauthorization requires the 
appointment of a Special Envoy, and I regret that there has not 
been a Special Envoy in this position for 3 years now.
    Unfortunately, the administration has virtually gone silent 
on human rights in North Korea. In his first year in office, 
the President pressed North Korea on human rights in September 
2017. In his first speech to the U.N. General Assembly, in 
January 2018, at the first State of the Union Address, almost 
10 percent of that speech was devoted to North Korea. He told 
Congress, quote, ``No regime has oppressed its own citizens 
more totally or brutally than the cruel dictatorship in North 
Korea.''
    In the gallery, and acknowledged were the parents of Otto 
Warmbier, the American student who died a few days after he was 
returned in a coma following his imprisonment in North Korea. 
In the gallery and also acknowledged was a North Korean 
defector who lost both legs trying to find food and survive the 
North Korean famine.
    Five months later, the President met with Kim Jong-un in 
Singapore with pomp and publicity but little substance. Human 
rights were not on the agenda.
    In January 2019, the President delivered his second State 
of the Union Address. North Korea was mentioned only briefly in 
passing when he announced that he would meet in Hanoi with Kim 
Jong-un. At the Hanoi summit, which ended early, the only human 
rights issue raised was the question of American student Otto 
Warmbier. At his press conference, the President said Kim Jong-
un told him he had no knowledge of what happened to the 
American student and, quote, ``I will take him at his word.''
    Since the collapse of the Hanoi summit, sincere efforts by 
the U.S. to resume dialogue with the North on denuclearization 
have not been reciprocated. Abandoning our principles on human 
rights did not lead to progress on the nuclear issue.
    In the last 3 years, we have backed away from the United 
Nations, which has been our most effective means to press the 
North on human rights. In 2013, with the U.S.'s strong support, 
we pressed for the creation of the Commission of Inquiry. That 
report has become the basis for much of what has been said and 
known about the human rights situation in North Korea. But we 
have also withdrawn from participation in the U.N. Human Rights 
Council. Our leadership is lacking in the Security Council to 
raise the issue of North Korea as it should be raised in the 
Security Council, as it was raised 4 years in a row, including 
in 2017 when Ambassador Nikki Haley was our U.N. 
representative. We need to resume our efforts on North Korea 
human rights in the United Nations.
    I was asked to make comments briefly on overseas North 
Korean workers, particularly those in China and Russia. First 
of all, this is a major source of funding for North Korean 
nuclear weapons and missile programs. Workers are not paid 
directly, and a significant portion of their salaries flow to 
the regime.
    Second, North Korean workers are not fully and fairly 
compensated for their labor. It is a human rights issue. They 
are forced to work long hours in difficult conditions, and they 
do not receive pay comparable to what local workers receive.
    Two of the largest users of North Korean labor are China 
and Russia. Both countries have an interest in limiting North 
Korean access to nuclear weapons and missiles, but China and 
Russia benefit economically from cheaper North Korean labor.
    The U.S. has to work with both countries. The vast majority 
of international trade for North Korea passes through China, 
and without the active support of Russia and China in the 
Security Council, it would be very difficult to enforce 
economic sanctions against North Korea.
    It is of concern also that South Korea has backed away from 
criticizing North Korea on its human rights abuses. The current 
South Korean Government has followed a policy towards North 
Korea that is similar to what we have followed in the United 
States over the last 2 years. The South Koreans have reduced, 
for example, increased funds for North-South cooperation while 
cutting funds for human rights. Aid for defectors has been cut 
by 31 percent in the last budget. The Unification Ministry's 
Human Rights Foundation has been cut by 93 percent. The 
Unification Ministry's database on North Korean human rights 
abuses has been cut by 74 percent.
    In November 2019, the South Korean Government did not 
sponsor the annual resolution in the U.N. General Assembly 
criticizing North Korea's human rights. South Korea had 
sponsored every annual U.N. resolution for the previous decade.
    The United States' failure to press aggressively on North 
Korean human rights abuses is a great disappointment. The 
United States should be a shining example on the hill, a beacon 
of hope on human rights. Unfortunately, we have hidden our 
light under a bushel. We have been silent on important issues 
of principle, and still we have made little progress with North 
Korea on our security concerns. Our foreign policy toward North 
Korea should reflect our national commitment, to human rights, 
those commitments on which this nation was founded.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador King follows:]

       Prepared Statement of Ambassador Robert R. King (retired)

    Chairman Gardner; Ranking Member Markey; Members of the 
Subcommittee, I appreciate this opportunity to appear before the East 
Asia, the Pacific, and International Cybersecurity Policy Subcommittee 
today on the topic of North Korea 1 year after the Hanoi Summit. Human 
Rights is a critical part of U.S. policy toward North Korea, and I will 
focus heavily on human rights. In the context of the aggressive nuclear 
and missile programs of the North Korean Government and the sanctions 
that have been imposed unilaterally by the United States as well as 
multilaterally through the United Nations Security Council with U.S. 
leadership and support, it is important that we not lose sight of the 
role and place of human rights in United States policy.
    First, I want to thank the East Asia Subcommittee, the Senate 
Foreign Relations Committee, and you, Chairman Gardner and Ranking 
Member Markey, for your leadership in the reauthorization of the North 
Korean Human Rights Act in 2017. This was the third time that this 
important legislation was extended by Congress since it was first 
adopted in 2004.
    At a time marked by partisanship, it is significant that the 
reauthorization legislation was approved by unanimous consent in the 
Senate and by a vote of 415 to 0 in the House of Representatives. This 
is most appropriate because of our commitment as a nation to the value 
and respect we hold for human rights.
    One of the important provisions of the North Korea Human Rights Act 
was the creation of the position of Special Envoy for North Korea human 
rights issues, the position in which I served for over 7 years. The 
reauthorization in 2017 included provisions to continue the requirement 
for the appointment of this Special Envoy. I very much regret that 
since I left that position over 3 years ago, it still has not been 
filled.
    The Congress is correct that it is important to designate an 
individual with ambassadorial rank to focus attention on the serious 
deficiencies in human rights in North Korea. I hope that the Congress 
can convince the President to uphold the law and designate an 
individual for this important position.
    The North Korea Human Rights Act is an important statement of 
United States principles and policies on the importance of human rights 
for the people of North Korea. The programs and funding that it 
authorizes are a significant part of United States policies toward 
North Korea.
               current policy on north korea human rights
    In the year before the Singapore Summit of June 2018, the President 
used strong language in criticizing North Korea's nuclear and missile 
programs--as well as its human rights violations. He did this in his 
speech to the United Nations General Assembly in September 2017. In the 
President's first State of the Union Address in January 2018 almost 10 
percent of that speech was devoted to North Korea, with a significant 
focus on human rights. The President told the Congress, ``No regime has 
oppressed its own citizens more totally or brutally than the cruel 
dictatorship in North Korea.''
    Fred and Cindy Warmbier, the parents of American student Otto 
Warmbier, were with the First Lady in the Gallery for that State of the 
Union Address. As you know, their son Otto was arrested in North Korea 
in January 2016, subsequently tried and found guilty for allegedly 
placing a framed slogan on the floor in the hallway of a Pyongyang 
hotel. He was returned to the United States 17 months later in a 
condition of ``unresponsive wakefulness,'' and he died just a few days 
after his return. The Warmbier's were given a standing ovation by the 
Members of Congress.
    Another highlight of that speech was the President acknowledging 
the presence of a North Korea defector sitting with the First Lady in 
the gallery of the House Chamber--Ji Seong-ho. The Congress gave this 
defector a standing ovation as he held a pair of crutches over his 
head. Mr. Ji left North Korea in the 1990s during the horrific famine 
caused by government leaders who focused resources on the military 
rather than feeding the North Korean people. His legs were run over by 
a train after he collapsed from exhaustion caused by lack of food and 
fell from the moving train. He was nursed back to health, but after he 
crossed the border and went into China to find food, North Korean 
border guards tortured him and took away his crutches. Mr. Ji 
eventually succeeded in escaping from North Korea, and he was able to 
find new opportunities in South Korea.
    Later that same week after the State of the Union Speech, the 
President met with Mr. Ji and 7 other North Korean defectors in the 
Oval Office where he again praised their courage and pledged to help.
    Unfortunately, the Administration has not continued to support 
human rights for the North Korean people. Just 2 months after the State 
of the Union Address in 2018, the President announced that he would 
meet with North Korean leader Kim Jong-un in Singapore. The summit took 
place in June 2018 with considerable fanfare, pomp and publicity. But 
there was no progress on limiting North Korea's nuclear and missile 
programs. And as far as we know, nothing of substance said about human 
rights during the meetings.
    One year after the Warmbier Family and Ji Seong-ho were recognized 
and applauded at the State of the Union, the President delivered his 
second State of the Union Address to Congress in January 2019. The 
President devoted only three sentences to North Korea. He announced 
that his, ``relationship with Kim Jong-un is a good one'' and said that 
his next meeting with Kim Jong-un would take place in Hanoi the 
following month. Nothing was said about nuclear weapons, missiles or 
human rights.
    At the unsuccessful Hanoi Summit, the only human rights issue 
apparently raised by the President in his meeting with Kim Jong-un was 
the case of American student Otto Warmbier. At a press event afterward 
the President said, ``really, really bad things happened to Otto,'' but 
Kim Jong-un told the President that, ``he didn't know about it, and I 
will take him at his word.''
    Since the collapse of the Hanoi Summit, there have been sincere 
efforts by now Deputy Secretary of State Steve Biegun to resume 
dialogue with the North on denuclearization, but North Korea clearly 
has shown no interest in moving forward with discussions with the 
United States. State Department officials have made a sincere and 
genuine effort, but the North has made no positive response. Abandoning 
our principles on human rights did not lead to progress on the nuclear 
issue.
    The President and senior Administration officials have not been 
directly associated with any human rights effort with North Korea for 
the previous 2 years. In December 2018, the United States Government 
imposed unilateral sanctions on three senior North Korean officials for 
human rights violations, and North Korea was again designated a 
``country of particular concern'' under the International Religious 
Freedom Act. The Treasury Department issued a press release ``quoting'' 
the Secretary of the Treasury, but there was not a word about this from 
the Oval Office and not even a press release with a quotation from the 
Secretary of State.
       pressing north korea on human rights in the united nations
    If we are to press North Korea on its egregious human rights 
record, United States leadership in the United Nations is critically 
important. Action by the United Nations reflects the views and policies 
of many countries. The United States can be successful internationally 
only if we have the support of other countries, and this is most 
effectively done through the United Nations.
    The U.S. was a leading voice in the creation of a special U.N. 
Commission of Inquiry into North Korean human rights in 2013. The 
Commission of Inquiry held widely publicized hearings in Seoul, Tokyo, 
Bangkok, Washington, and Geneva with North Korean human rights victims 
and with leading experts and scholars on human rights. The 400-page 
report of the Commission is the most complete and authoritative 
discussion of the human rights abuses of the Pyongyang government.
    With strong United States support that report was discussed in the 
United Nations Human Rights Council in Geneva, in the U.N. General 
Assembly in New York, and at the U.N. Security Council. Resolutions 
commending the Commission of Inquiry and calling for North Korea to 
improve its human rights record were adopted by large majorities at the 
Human Rights Council and at the General Assembly. North Korea was put 
on the defensive for its abysmal human rights record--and the United 
States played a leading role in making that happen.
    I deeply regret that over the last 3 years we have backed away from 
our leadership on human rights in the United Nations. In June 2018, the 
United States withdrew from participation in the United Nations Human 
Rights Council. Our voice is no longer heard in the Council on human 
rights issues--not only on in North Korea but on all other human rights 
issues as well.
    I do agree that the Human Rights Council has been unfair in its 
treatment of Israel and in some criticism of the United States. But the 
example of the United States and the leadership of the United States on 
human rights is still important. We were criticized for our treatment 
of Native Americans--and there is room for criticism in that regard. 
But previously, the U.S. named a distinguished Native American attorney 
as our Representative to the U.N. Human Rights Council, and he played a 
very positive role in Geneva on a whole range of human rights issues.
    Picking up our marbles and going home is not the way to deal with a 
problem. Our voice should be there; our commitment to human rights 
needs to be known. When a resolution on North Korea's human rights was 
considered in the U.N. Human Rights Council in the spring, we did not 
sponsor the resolution. Even though we were not a member of the 
Council, we could have sponsored this good document. We have removed 
ourselves from the discussion of North Korea's human rights abuses in 
the most important forum.
    Also, United States leadership was critical in 2014, 2015, 2016, 
and 2017 in raising North Korea's human rights abuses at the United 
Nations Security Council. After the U.N. Commission of Inquiry report 
on North Korean human rights, the United States led the effort to place 
that issue on the agenda of the Security Council. For 4 years, it was a 
topic of discussion in the highest United Nations body. North Korea 
human rights was last discussed in the Security Council in December 
2017 when Ambassador Nikki Haley was serving as our ambassador to the 
United Nations, and she played a key role in getting that issue on the 
Security Council agenda. We need to resume that effort.
                     overseas north korean workers
    North Korean labor in China, Russia, and other countries is a 
serious concern for the United States. First, because it is a major 
source of funding for the North Korean effort to upgrade nuclear 
weapons and improve long range missiles. Foreign workers are sent 
abroad with North Korean ``minders'' who manage their work and monitor 
their living conditions. The workers are not paid directly, but 
managers are paid, and a significant chunk of their salaries flow to 
the regime and to those who manage them. A small proportion of the 
salary finds its way into the workers pockets when they eventually 
return to North Korea.
    Second, there is a human rights issue with regard to North Korean 
foreign labor. These North Koreans are not fully compensated for their 
work. While they may be able to earn more abroad than at home, they are 
still forced to work long hours under very difficult working 
conditions. And, they do not receive comparable payment to what local 
workers receive. Foreign laborers are subject to the same human rights 
abuses abroad as they face at home in terms of control of their lives. 
Family members do not accompany them, but the family remains in North 
Korea, where they are basically held hostage to ensure their husbands 
and fathers do not defect.
    Two of the largest users of North Korean labor are China and 
Russia. They have a conflict of interest. On one hand, both countries 
have an interest in limiting DPRK access to nuclear weapons, and the 
U.S. is in harmony with Beijing and Moscow on that point.
    But China and Russia also benefit from North Korean labor. For 
China, North Koreans are cheaper than Chinese labor, because they are 
made to work longer and harder for less money. China also has an 
interest in preventing North Korea economic problems because too many 
refugees from the North will flee across their border into Northeast 
China if there are economic or other difficulties in the North. 
Northeast China is one of China's economic problem areas, and 
difficulties in North Korea can lead to difficulties in Northeast 
China.
    For Russia, North Korean workers are heavily used in the Russian 
Far East where there are few Russian citizens. Furthermore, North 
Koreans earn less than Russian workers. North Korean labor is important 
for the economy of the Russian Far East.
    We need the cooperation and assistance of the Chinese and Russians 
in the U.N. Security Council because they have a far greater economic 
relationship with the North than we do. The vast majority of 
international trade for North Korea goes through China, and North Korea 
is an important source of cheap coal for China.
    Without the active and positive support of China and Russia, it 
will be very difficult to enforce economic sanctions against North 
Korea. North Korean trade with China has dropped because of sanctions. 
We need to encourage greater effort from China and Russia, but we are 
limited in how hard we can push.
             the moon jae-in government in south korea and
                   north korea's human rights abuses
    The current South Korean government of President Moon Jae-in has 
followed a policy toward the North that is similar to what the current 
U.S. Administration has pursued in the last 2 years. It has sought to 
improve relations with the North, and that has meant soft peddling 
human rights issues. The North clearly would like to see no support 
from the South for defectors from the North.
    For example, in November 2019, the South Korea returned to the 
North two North Korean sailors who sought to defect, and who were 
accused of killing sixteen shipmates. The incident including the return 
of the two sailors was not made public by the South Korean government 
until journalists discovered and publicized a text message confirming 
the repatriation. The South Korean National Assembly launched an 
investigation into the matter.
    The decision of the Moon Administration was made without granting 
the defectors access to an attorney, without a court hearing on the 
case, and without allowing them to appeal the government's decision to 
repatriate them. This was the first time ever that North Koreans were 
repatriated by the South Korean government because of crimes they were 
alleged to have committed in the North or because their intent to 
defect may have been dishonest.
    That same month, 11 North Korean refugees crossed into Vietnam on 
their way to South Korea. Vietnam announced that they would be returned 
to North Korea. The South Korean government was criticized in the 
domestic news media and European organizations became involved before 
the South intervened and the defectors were released.
    There have been other indications of a change by Seoul. In the 
March 2018 the Moon government's budget boosted funds for inter-Korean 
cooperation while aid for South Korean human rights efforts were 
significantly cut, including a 31 percent reduction in aid for 
defectors. The Ministry of Unification's Human Rights Foundation saw 
its funds cut 93 percent, and the budget for the database maintained by 
the Ministry on human rights abuses by the North was cut by 74 percent.
    Furthermore, in November 2019, the South Korean government did not 
sponsor the annual U.N. General Assembly resolution critical of North 
Korea's human rights record. This was in stark contrast with previous 
practice. The South sponsored every annual U.N. resolution from 2008 to 
2019. A letter to President Moon from Human Rights Watch and 66 other 
international human rights organizations raised questions about the 
South Korean government's position on human rights, in particular its 
failure to cosponsor the U.N. General Assembly resolution critical of 
North Korea's human rights record.
    In conclusion, Mr. Chairman, the United States' failure to press 
aggressively on the North Korean human rights abuses in our bilateral 
policy with the North and in the United Nations is a great 
disappointment. The United States should be a shining city on the hill, 
a beacon of hope on human rights. Unfortunately, we have hidden our 
light under a bushel. We have been silent on important issues of 
principle. And still we have made little progress with North Korea on 
our security concerns. Our foreign policy toward North Korea should 
reflect our values, our commitment to the human rights ideals on which 
nation was founded.

    Senator Gardner. Thank you, Ambassador.
    Our next witness is Mr. Bruce Klingner, who currently 
serves as a Senior Research Fellow for Northeast Asia. Before 
joining Heritage, Mr. Klingner served for 20 years at the 
Central Intelligence Agency and the Defense Intelligence Agency 
focusing on North Korea and regional issues. From 1996 to 2001, 
Mr. Klingner served as the Deputy Division Chief for Korea at 
the Central Intelligence Agency, and from 1993 to 1994, he was 
the Chief of the CIA's Korea Branch.
    He previously testified before this subcommittee on June 
25th, 2017. Mr. Klingner, glad to have you back to this 
committee. Thank you very much for your service and look 
forward to your comments.

STATEMENT OF BRUCE KLINGNER, SENIOR RESEARCH FELLOW, NORTHEAST 
         ASIA, THE HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Klingner. Thank you very much, Mr. Chairman. It is 
indeed an honor to be asked to speak before you on such an 
important matter to the security of our nation.
    The U.S.-North Korea denuclearization talks are stalled. 
Special Envoy Stephen Biegun, like his predecessors, tried 
valiantly to engage with North Korean counterparts only to be 
repeatedly rebuffed. Pyongyang declared it is not interested in 
working-level talks nor in additional summit meetings. And once 
again, it is North Korea that rejects diplomacy and 
negotiations.
    Euphoric claims of breakthroughs made after the Singapore 
summer were premature. Contrary to claims of success, the Trump 
administration has made no progress on North Korean 
denuclearization. The two sides remain far apart over the 
definitions of seemingly straightforward terms such as 
``denuclearization'' and the ``Korean Peninsula.''
    Instead, North Korea continues to nuclearize. Pyongyang 
continues its nuclear missile programs unabated, and the regime 
continues to produce fissile material for more nuclear weapons, 
as well as expanding and refining production facilities for 
missiles, mobile missile launchers, and nuclear warheads.
    In 2019, North Korea launched 26 missiles--that is the 
largest number of violations of U.N. resolutions in 1 year by 
the regime ever--and unveiled five new short-range ballistic 
missile systems that threaten South Korea, Japan, and U.S. 
forces stationed there.
    While U.S. officials wait by the phone for Pyongyang to 
call, they are also waiting for the other shoe to drop of the 
next provocation. At the 2019, Kim Jong-un announced he would 
no longer feel bound by his promise to President Trump not to 
conduct nuclear or ICBM tests, a promise that was irrelevant 
because North Korea is required under 11 U.N. resolutions not 
to do nuclear tests or missile tests of any range. Instead, 
Pyongyang has threatened to demonstrate a new promising 
strategic weapon system.
    Over the decades of negotiations with North Korea, the U.S. 
and other members of the international community have offered 
economic benefits, developmental assistance, humanitarian 
assistance, diplomatic recognition, declarations of non-
hostility, turning a blind eye to violations of U.N. 
resolutions, non-enforcement of U.S. laws, and reducing allied 
defenses, all to no avail.
    Despite the failure of all previous denuclearization 
agreements with North Korea, the U.S. should continue 
diplomatic attempts to reduce the North Korean nuclear threat. 
However, the Trump administration should resist in treaties to 
lower the negotiating bar to achieve perceived progress. 
President Trump should reject calls for relaxing sanctions in 
return for only a partial flawed agreement that does not 
include a clearly defined endpoint of North Korean abandonment 
of its nuclear and missile production facilities and arsenal, 
as well as rigorous verification protocols.
    In response to North Korean intransigence and continued 
defiance of the international community, Washington should 
rethink its self-imposed restraints on military exercises and 
canceling them, though the coronavirus now may supersede that 
recommendation. America's self-imposed military concession did 
not lead to diplomatic progress nor reduce the North Korean 
nuclear threat or the military threat. Instead, the regime 
continues to conduct large-scale military exercises of its own.
    The United States and South Korea have canceled numerous 
military exercises, as well as reducing the size, scope, 
volume, and frequency of additional exercises. Doing so risks 
degrading allied deterrence and defense capabilities. The 
exercises are necessary to ensure the interoperability and 
integration of allied military operations and ensure readiness 
to respond to North Korean attacks.
    The Trump administration should also end its self-imposed 
constraints on enforcing U.N. resolutions and U.S. laws. The 
Trump administration, for all its declarations of maximum 
pressure on North Korea, has only anemically applied sanctions 
since the Singapore summit. Maximum pressure has never been 
maximum. As you mentioned, Mr. Chairman, President Trump 
declared he would not impose sanctions on 300 North Korean 
entities, those that were violating U.S. law in the U.S. 
financial system. The U.S. Treasury Department deferred 
imposing sanctions on 3 dozen Russian and Chinese entities 
providing prohibited support to North Korea. The White House 
has taken no action against a dozen Chinese banks that Congress 
recommended be sanctioned for money laundering for Pyongyang. 
And in March 2019, Trump reversed the Treasury Department's 
minimalist step of targeting two Chinese shipping firms. Law 
enforcement should not be negotiable.
    Washington must also uphold human rights principles. 
Downplaying North Korean human rights violations and embracing 
a purveyor of crimes against humanity to gain diplomatic 
progress runs counter to American values.
    The U.S. is also risking undermining critically important 
alliances by asking for exorbitant increases in cost-sharing 
negotiations. Excessive demands presented in a combative manner 
are needlessly straining relations with allies at a time when 
we should be standing shoulder to shoulder in the face of 
common threats. The Administration's monetary demands are at 
odds with its strong advocacy of alliances, as detailed in the 
National Security and National Defense Strategies.
    Alliances are not valued in dollars and cents, nor should 
alliances be money-making operations for the United States. 
Excessive monetary demands degrade alliances that are based on 
shared values and principles and goals into mere transactional 
relationships. America's men and women in uniform, including my 
son, a United States Marine currently serving his second tour 
in Afghanistan, are not mercenaries.
    The U.S.-South Korean alliance was forged in blood during 
the Korean War. Its enduring motto is ``katchi kapshida,'' or 
we go together. It must never become we go together if we are 
paid enough.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Klingner follows:]

                  Prepared Statement of Bruce Klingner

         stalled denuclearization talks: waiting for the phone
                   to ring or the other shoe to drop
    The U.S.-North Korean denuclearization talks are stalled. Special 
Envoy Stephen Biegun, like his predecessors, tried valiantly to engage 
with North Korean counterparts only to be repeatedly rebuffed. 
Pyongyang declared it is not interested in either working level or 
summit meetings. Once again, it is North Korea that rejects diplomacy 
and negotiations. Kim Jong-un has shown himself to be no more willing 
to abandon his country's arsenal than his predecessors.
    Euphoric claims of breakthroughs made after the Singapore summit 
turned out to be premature. To date, President Trump's top-down 
approach of summit diplomacy has been no more effective than previous 
efforts to curtail Pyongyang's nuclear ambitions. However, Trump's 
willingness to meet with Kim tested the long-standing hypothesis of 
engagement enthusiasts that a face-to-face meeting of the U.S. and 
North Korean leaders would resolve the nuclear impasse.
    Despite three meetings between Trump and Kim, the two sides remain 
far apart even over the definitions of seemingly straightforward terms 
such as ``denuclearization'' and ``Korean Peninsula,'' let alone the 
sequencing, linkages, and timeline for achieving denuclearization.
    In the Hanoi summit, Kim Jong-un proposed closing the Yongbyon 
nuclear complex, just as his father and grandfather had done for 
decades. It was the fifth time that Pyongyang offered Yongbyon in an 
agreement.\1\ President Trump walked away from the opportunity to reach 
a flashy but poorly crafted deal. For that he is to be commended. But, 
while a correct tactical decision, it leaves the Trump administration 
no closer to achieving its strategic objective of denuclearizing North 
Korea.
    There has been no progress toward denuclearization or any 
degradation of the North Korean military threat to the United States 
and its allies. Instead, Pyongyang continues its nuclear and missile 
programs unabated. It has likely produced fissile material for another 
six-to-eight nuclear weapons since the Singapore summit while testing 
new weapons and expanding production facilities for missiles, mobile 
missile launchers, and nuclear warheads.
    In 2019, North Korea launched 26 missiles, the highest-ever number 
of violations of U.N. resolutions in 1 year. Pyongyang unveiled five 
new short-range ballistic missiles that threaten South Korea, Japan, 
and U.S. forces stationed in both countries.
Waiting for the Next Provocation
    At the end of 2019, Kim Jong-un announced he no longer felt bound 
by his promise to President Trump not to conduct nuclear or ICBM tests. 
Instead, Pyongyang threatened to demonstrate a new, ``promising 
strategic weapon system.'' \2\
    After a 4-day Korea Workers' Party plenum meeting, North Korea left 
the door to negotiations open the tiniest of cracks, with the ``scope 
and depth'' of its nuclear and missile deterrent contingent on a 
dramatically altered U.S. policy. But the regime's demands, including 
an end to military exercises and weapons sales to South Korea, have 
long been unacceptable to the United States. The regime dismissed 
Washington's calls for dialogue as stalling tactics and indicated it 
would seize the initiative rather than waiting for the situation to 
improve.
    Pyongyang may move incrementally up the escalation ladder to garner 
concessions before returning to diplomatic talks. Options include 
medium-range and intermediate-range missile launches and a space-launch 
vehicle before crossing President Trump's red line of nuclear and ICBM 
tests. The regime could also restore its mothballed nuclear test site, 
unveil a new missile system or submarine, or conduct low-level military 
provocations in the West Sea near South Korea.
    Historically, Pyongyang has moved slowly to implement its threats, 
seeking to gain negotiating leverage or objectives. But, the regime 
could maximize its leverage by moving immediately to a long-range 
missile or nuclear test to confront Washington with a high-stakes 
crisis.
    Kim Jong-un may feel that he has the upper hand when confronting 
the United States. North Korean officials have repeatedly referenced 
the 2020 U.S. election, believing that threats of resuming nuclear and 
ICBM tests would hang as the sword of Damocles over President Trump's 
head and would hence induce additional concessions.
What Does North Korea Want?
    An adage amongst long-time North Korea watchers is that ``something 
is important to Pyongyang . . . until it isn't. And it isn't important 
. . . until it is.'' The saying reflects the regime's shifting 
priorities for its demands of the United States and the international 
community in return for denuclearization. Like parched nomads chasing a 
desert mirage only to have it disappear, U.S. diplomats often found a 
key North Korean demand vanish in favor of a new requirement.
    Pyongyang's bait-and-switch technique seeks parallel paths to 
benefits while keeping diplomatic opponents off balance. When a U.S. 
concession gained no traction with the recalcitrant regime, engagement 
advocates called on Washington to offer yet another to maintain 
``progress'' or to ``improve the negotiating atmosphere.''
    However, the United States has already offered economic benefits, 
developmental assistance, humanitarian assistance, diplomatic 
recognition, declarations of non-hostility, turning a blind eye to 
violations, not enforcing U.S. laws, and reducing allied defenses all 
to no avail.
    South Korea has participated in large joint economic ventures with 
North Korea. Successive South Korean administrations offered extensive 
economic and diplomatic inducements in return for Pyongyang beginning 
to comply with its denuclearization pledges.
    Diplomacy Tried, and Tried, and Tried. The international community 
has engaged in repeated diplomatic efforts to prevent, then reverse, 
Pyongyang's quest to develop nuclear weapons. All of the accords 
collapsed because North Korea cheated or did not fulfill its pledged 
obligations. A record of zero-for-eight does not instill much 
confidence in the benefit of undertaking even more attempts.\3\
    For over 20 years, there have been two-party talks, three-party 
talks, four-party talks, and six-party talks to resolve the North 
Korean nuclear weapons issue. Seoul has signed 240 inter-Korean 
agreements on a wide range of issues.
    Despite decades of U.S. diplomacy with North Korea, real 
negotiations on eliminating the regime's nuclear arsenal have yet to 
begin. Pyongyang rejects the core premise of negotiations, which is 
that it must abandon its nuclear weapons and programs.
    Cancelling Military Exercises Did Not Work. In Singapore, President 
Trump declared that he would suspend the ``provocative'' U.S.-South 
Korea ``war games''--terms that Washington had previously rejected when 
used by North Korea.
    Secretary of State Michael Pompeo recently indicated that President 
Trump promised to cancel large-scale allied military exercises in 
return for Kim's promise to refrain from nuclear and ICBM tests--a poor 
deal, given that North Korea is prohibited by 11 U.N. resolutions from 
conducting nuclear or any missile launch, regardless of range. Prior to 
the Singapore meeting, Kim had announced nuclear and ICBM testing were 
no longer necessary since both programs had been completed.
    The United States and South Korea have reduced the size, scope, 
volume, and timing of allied military exercises in Korea. Washington 
and Seoul cancelled at least thirteen military exercises and imposed 
constraints on additional military training. Doing so risks degrading 
allied deterrence and defense capabilities. The exercises are necessary 
to ensure the interoperability and integration of allied military 
operations and ensure readiness to respond to North Korean attacks.
    Pyongyang did not codify its missile and nuclear-test moratorium in 
the Singapore communique, nor did it announce reciprocal constraints on 
its own military exercises. General Robert Abrams, commander of U.S. 
Forces Korea, testified that ``we have observed no significant changes 
to size, scope, or timing of [North Korea's] ongoing exercises.'' He 
added that Pyongyang's 2019 annual winter training cycle involved one 
million troops.\4\
    Sanctions Relief Did Not Work. Successive U.S. administrations have 
provided indirect sanctions relief by never fully enforcing U.S. laws 
against North Korean and other violating entities. President George W. 
Bush reversed U.S. law enforcement against a foreign bank engaged in 
money laundering in a vain attempt to make progress in denuclearization 
negotiations. President Barack Obama pursued a policy of timid 
incrementalism in sanctions enforcement.
    The Trump administration, for all its declarations of ``maximum 
pressure'' on North Korea, has only anemically applied sanctions since 
the Singapore summit. In June 2018, Trump explained that he would not 
impose sanctions on 300 North Korean violators because ``we're talking 
so nicely'' with Pyongyang.\5\ He added, ``I don't even want to use the 
term `maximum pressure.'''
    The U.S. Treasury Department deferred imposing sanctions on three 
dozen Russian and Chinese entities providing prohibited support to 
North Korea, and the White House has taken no action against a dozen 
Chinese banks that Congress recommended be sanctioned for their 
dealings with Pyongyang. In March 2019, Trump reversed the Treasury 
Department's minimalist step of targeting two Chinese shipping firms 
helping Pyongyang circumvent U.N.-imposed restrictions on North Korean 
trade. The White House spokesperson commented, ``President Trump likes 
Chairman Kim and he doesn't think these sanctions will be 
necessary.''\6\
    Removing sanctions as the price for restarting negotiations would 
mean abandoning key leverage and would be contrary to U.S. laws. 
Sections 401 and 402 of the North Korea Sanctions and Policy 
Enhancement Act of 2016 define numerous actions that North Korea must 
take before the president is allowed to suspend sanctions against the 
regime for 1 year or to terminate them.
    Security Guarantees Did Not Work. North Korea has made a recurring 
demand for a security guarantee. In the 2018 Singapore summit 
statement, President Trump committed to provide security guarantees to 
North Korea, and Secretary Pompeo affirmed that the United States was 
willing to offer North Korea ``unique'' security guarantees ``to 
provide them sufficient certainty that they can be comfortable that 
denuclearization is not something that ends badly for them.'' \7\
    After the 2019 Hanoi summit failed to achieve progress, North 
Korean foreign minister Ri Yong-ho announced that ``the security 
guarantee is more important to us [than sanctions release] in the 
process of taking the denuclearization measure.'' Secretary Pompeo 
replied that ``we're prepared to provide a set of security arrangements 
that gives them comfort that if they disband their nuclear program, 
that the United States won't attack them in the absence of that.'' \8\
    U.S. officials have sought clarification from North Korean 
diplomats but Pyongyang has not articulated what it wants guaranteed: 
No preemptive or preventive military attack? North Korean national 
sovereignty? Kim family regime survivability? Nor has the regime 
specified the form that a guarantee should take: A paper declaration? 
An end-of-Korean War declaration or peace treaty? More expansive 
confidence-building measures and military force reductions?
    The United States has repeatedly provided such promises in the 
past--to no avail. In the 1994 Agreed Framework, Washington committed 
to ``provide formal assurances to [North Korea] against the threat or 
use of nuclear weapons by the U.S..'' \9\
    In the 2005 Six-Party Talks Joint Statement, the United States 
pledged it ``has no intention to attack or invade [North Korea] with 
nuclear or conventional weapons.'' \10\ Former National Security 
Council official Victor Cha compiled a list of over 20 U.S. security 
assurances to North Korea in a 2009 study.\11\
    The Trump administration made similar pledges, including then 
Secretary of State Rex Tillerson's declaration that the United States 
``will not seek a regime change, a collapse of the regime, an 
accelerated reunification of the peninsula, or an excuse to send [U.S.] 
military north of the 38th parallel.'' \12\
    Economic Aid Did Not Work. Pyongyang has indicated that no amount 
of economic benefits can address the security concerns the regime cites 
as justification for its nuclear weapons programs. North Korea 
perceives nuclear weapons as the only way to prevent it from becoming 
another Iraq, Yugoslavia, or Libya.
    Similarly, since North Korean nuclear weapons are purported to be a 
response to the U.S. ``hostile policy,'' no South Korean offers of 
economic assistance or security measures can dissuade Pyongyang from 
continuing with its nuclear programs. South Korea provided billions of 
dollars in economic benefits. Still, it did not induce North Korea to 
undertake political or economic reform or moderate its quest for 
nuclear weapons.
    Pyongyang's provocative antics and threats are not merely 
negotiating ploys, but instead are designed to achieve international 
acceptance of North Korea's status as a nuclear power. North Korean 
officials have repeatedly indicated that that is precisely their 
intention.
What Can Be Tried?
    An End of War Declaration.\13\ In the Singapore statement, the two 
countries agreed to ``join their efforts to build a lasting and stable 
peace regime on the Korean Peninsula.'' The North Korean Ministry of 
Foreign Affairs declared that ``the issue of announcing the declaration 
of the end of the war at an early date is the first process of defusing 
tension and establishing a lasting peace regime on the Korean Peninsula 
[and] constitutes a first factor in creating trust between [North 
Korea] and the U.S..'' \14\ Pyongyang claims that Trump already 
committed to signing a peace declaration during the Singapore 
summit.\15\
    Advocates of declaring an end to the Korean War downplay concerns 
over the ramifications by highlighting that the document would be only 
symbolic, without any real effect or consequences. On the other hand, 
they have yet to identify any tangible benefits to signing a peace 
declaration--a specific quid pro quo from the regime or a change in 
North Korean policy or behavior resulting from the regime feeling less 
threatened.
    Yet, a peace declaration could have serious negative ramifications 
for alliance security. Even a limited declaration could create domino-
effect advocacy for prematurely signing a peace treaty, reducing U.S. 
deterrence and defense capabilities and abrogating the mutual defense 
treaty before reducing the North Korean threat that necessitated U.S. 
involvement.
    Beyond security ramifications, a peace declaration could also lead 
to advocacy of reducing U.N. and U.S. sanctions and providing economic 
largesse to North Korea even before it takes significant steps toward 
denuclearization.
    A Freeze Rather than Denuclearization. There has been much debate 
amongst experts on the utility of a ``freeze'' on North Korea's nuclear 
weapons production. Some freeze proponents argue that the United States 
should abandon unrealistic expectations of total denuclearization and 
accept a capping of North Korea's arsenal through a freeze on future 
production. Others argue that a production freeze, requiring some 
reciprocal U.S. actions, would be an interim step toward eventual 
denuclearization.
    A freeze agreement could include capping production of fissile 
material, a moratorium on nuclear and missile testing, and a pledge not 
to export nuclear technology. The freeze proposals share a common theme 
in calling for yet more U.S. concessions to encourage Pyongyang to 
commit to undertaking a portion of what it is already obligated to do 
under numerous U.N. resolutions.
    A nuclear freeze was negotiated in the February 2012 Leap Day 
Agreement, in which Washington offered Pyongyang 240,000 tons of 
nutritional assistance and a written declaration of no hostile intent. 
In return, North Korea pledged to freeze nuclear reprocessing and 
enrichment activity at the Yongbyon nuclear facility, not to conduct 
any nuclear or missile tests, and to allow the return of International 
Atomic Energy Agency (IAEA) inspectors to Yongbyon. Indeed, all 
previous denuclearization agreements with North Korea were variants on 
a freeze, and all failed.
    A freeze could be seen as de facto recognition and acceptance of 
North Korea as a nuclear state, which would undermine the Treaty on the 
Non-Proliferation of Nuclear Weapons (NPT) and send the wrong signal to 
other nuclear aspirants: that the path is open to nuclear weapons. 
North Korea would be allowed to retain its nuclear threat to South 
Korea and Japan, as well as U.S. forces, bases, and civilians 
throughout Asia.
    This, in turn, could exacerbate allied concerns about the 
reliability of the U.S. extended deterrence guarantee and increase 
advocacy within South Korea for an independent indigenous nuclear 
weapons program and greater reliance on preemption strategies.
Risking Allied Security Posture
    President Donald Trump is demanding a five-fold increase in South 
Korea's annual reimbursement for the cost of stationing U.S. troops 
overseas, with all signs pointing to a similar demand coming on Japan.
    The U.S. has long sought greater allied compensatory costs and 
involvement in overseas operations. But all allies are not the same. 
South Korea and Japan should be recognized for their significant 
contributions.
    South Korea spends 2.6 percent of its gross domestic product on 
defense; that's more than any of our European allies. By 2022, South 
Korea will be among the world's top five or six highest spenders on 
defense.
    Seoul provides nearly half of the cost of stationing U.S. forces in 
South Korea. Not counted in Seoul's contribution is land provided for 
U.S. bases at no cost and tax free. Seoul paid 92 percent of the $11-
billion cost for building Camp Humphreys, the largest U.S. base on 
foreign soil, and over the last 4 years, South Korea has purchased $13 
billion in arms from the United States.
    South Korea has also been a stalwart ally beyond its shores. Seoul 
sent 300,000 troops to the Vietnam War, and 5,000 of its soldiers were 
killed. At one point, it fielded the third-largest troop contingent in 
Iraq after the United States and Britain. It has also conducted anti-
piracy operations off Somalia and participated in peacekeeping 
operations in Afghanistan, East Timor and elsewhere.
    Japan covers approximately 75 percent of the cost of deployed U.S. 
forces as well as nearly all of the construction costs of new large 
U.S. facilities at Futenma and Iwakuni, and one-third of the cost of 
new Marine Corps facilities in Guam. Japan does not spend as much as a 
percentage of GDP as South Korea. But it is a larger economy, and in 
dollar terms, it spends more. Tokyo also purchases 90 percent of its 
defense equipment from the United States.
    The Importance of U.S. Forces Overseas. Attaining and defending 
American national interests in Asia requires U.S. bases and access, 
sufficient forward-deployed military forces to deter aggression, robust 
follow-on forces, and strong alliances and security relationships with 
South Korea, Japan and other countries in that part of the world. The 
U.S. military presence in Asia is also an indisputable signal of 
Washington's commitment to defend its allies and maintain peace and 
stability in the region.
    As President Ronald Reagan eloquently proclaimed during a D-Day 
remembrance ceremony in Normandy, ``We in America have learned bitter 
lessons from two World Wars: It is better to be here ready to protect 
the peace, than to take blind shelter across the sea, rushing to 
respond only after freedom is lost . . . . The strength of America's 
allies is vital to the United States, and the American security 
guarantee is essential . . . . We were with you then; we are with you 
now. Your hopes are our hopes, and your destiny is our destiny.''
    The Administration's monetary demands are at odds with its strong 
advocacy of alliances, as detailed in the National Security and 
National Defense Strategies. Those documents stress how alliances 
magnify U.S. power, extend American influence and form the ``backbone 
of global security.'' Trump's demands also run counter to the strong 
congressional and public support for these Asian alliances.
    Alliances are not valued in dollars and cents, and American service 
members are not mercenaries. Excessive U.S. monetary demands degrade 
alliances based on shared principles and goals into mere transactional 
relationships.
    Maintain alliance solidarity. Cost-sharing negotiations are always 
contentious, but the Trump Administration has made excessive demands in 
a combative manner, needlessly straining relations with allies at a 
time when we should be standing shoulder to shoulder in the face of 
common threats. The Administration should drop its demands for massive 
increases in funding and shift instead to more moderate, incremental 
increases that maintains allied cohesion.
    The U.S.-South Korean alliance was forged in blood during the 
Korean War. Its enduring motto is ``katchi kapshida'' (``we go 
together''). The motto cannot become ``we go together, if we are paid 
enough.'' As Winston Churchill sagely advised, ``There is only one 
thing worse than fighting with allies and that is fighting without 
them.''
How the U.S. Should Respond to North Korea
    The United States should continue diplomatic attempts to reduce the 
North Korean nuclear threat. The failure of all previous 
denuclearization agreements with North Korea does not preclude 
additional attempts at negotiations.
    U.S. diplomats should determine the conditions under which North 
Korea would comply with the eleven U.N. resolutions that require the 
regime to abandon its nuclear, missile, and biological/chemical warfare 
weapons and program in a complete, verifiable, irreversible manner.
    The Trump administration must chart a course between the twin flaws 
of over-reacting and under-reacting to any North Korean provocation. 
While the U.S. should remain vigilant and resolute against any North 
Korean attack, it should not return to the ``fire and fury'' rhetoric 
of threatening a preventive strike.
    Nor should the U.S. initiate an attack on North Korea for crossing 
a technological threshold, since that would risk precipitating a full-
scale war with a nuclear nation, leading to massive casualties. The 
more prudent course of action is to reserve a pre-emptive attack for a 
situation in which the Intelligence Community has strong evidence of 
imminent strategic nuclear attack on the U.S. or its allies.\16\
    The Trump administration should also resist entreaties to lower the 
negotiating bar to achieve progress. President Trump should reject 
calls for relaxing sanctions in return for only a partial, flawed 
agreement that does not include a clearly defined endpoint of North 
Korean abandonment of its nuclear and missile production facilities and 
arsenal, as well as rigorous verification protocols.
    In response to North Korean intransigence and continued defiance of 
the international community, Washington should announce it will resume 
canceled military exercises with South Korea. America's self-imposed 
military concession did not lead to diplomatic progress nor reduce the 
North Korean military threat.
    The Trump administration should also end its self-imposed 
constraints on enforcing U.N. resolutions and U.S. laws. Law 
enforcement should be used as a negotiating chit. Washington must take 
action against any entity that violates U.N. sanctions or U.S. 
legislation. U.S. sanctions are responses to North Korean actions. As 
long as the sanctioned behavior continues, then Washington should 
maintain its targeted financial measures. Reducing U.S. sanctions is 
subject to legal constraints.
    The Trump administration should ratchet up pressure on North Korea 
and foreign enablers of its prohibited nuclear and missile programs. 
Washington should sanction the 300 North Korean entities referenced by 
President Trump in June 2018, penalize Chinese financial institutions 
engaged in money laundering and other crimes, impose secondary 
sanctions against entities aiding North Korean evasion of sanctions, 
return to the previous level of military exercises, repair strained 
relations with its Asian allies, and uphold human rights principles.
    Washington must also uphold human rights principles. Downplaying 
North Korean human rights violations and embracing a purveyor of crimes 
against humanity to gain diplomatic progress runs counter to U.S. 
values and sets a poor precedent for negotiations. The North Korea 
Sanctions and Policy Enhancement Act
 104(a)(5) mandates sanctions against any person who knowingly 
facilitates severe human rights abuses.\17\
Conclusion
    It is not surprising that there has been no progress in 
denuclearization talks. North Korea has been pursuing nuclear weapons 
since the 1960s and has been obfuscating about promises to abandon them 
for decades.
    While the United States should continue to strive for a diplomatic 
solution to the North Korean nuclear threat, it is far more likely that 
North Korea will remain a challenge that requires a bipartisan policy 
of deterrence, containment, and compellence.
    The best U.S. policy is a comprehensive strategy of diplomacy, 
upholding U.N. resolutions and U.S. laws, and deterrence until the 
nuclear, missile, and conventional force threat is reduced.

----------------
Notes

    \1\ The previous agreements were the 1994 Agreed Framework, the 
2005 and 2007 six-party talks agreements, and the 2012 Leap Day 
Agreement.
    \2\ ``Report on 5th Plenary Meeting of 7th C. C., WPK,'' KCNA, 
January 1, 2020, https://kcnawatch.org/newstream/1577829999-473709661/
report-on-5th-plenary-meeting-of-7th-c-c-wpk/.
    \3\ Pyongyang acceded to the 1992 North-South Denuclearization 
Agreement, the Non-Proliferation Treaty, the safeguards of the 
International Atomic Energy Agency (IAEA), the Agreed Framework, three 
agreements under the six-party talks, and the Leap Day Agreement.
    \4\ General Robert B. Abrams, testimony before the Armed Services 
Committee, U.S. Senate, February 12, 2019, https://www.armed-
services.senate.gov/imo/media/doc/Abrams_02-12-19.pdf.
    \5\ Ben Riley-Smith, ``Trump-Kim Summit: Donald Trump Vows to `End 
War Games' in `New History' with North Korea,'' Telegraph, March 21, 
2018, https://www.telegraph.co.uk/news/2018/06/11/donald-trump-kim-
jong-un-summit-live-latest-news-updates-us.
    \6\ Jacob Pramuk, ``Trump Will Remove New North Korea-Related 
Sanctions Because He `Likes' Kim Jong Un,'' CNBC, March 22, 2019, 
https://www.cnbc.com/2019/03/22/trump-says-he-will-remove-north-korea-
related-sanctions.html.
    \7\ ``U.S. to Offer North Korea `Unique' Security Guarantees for 
Denuclearization: Pompeo,'' Channel News Asia, June 11, 2018, https://
www.channelnewsasia.com/news/world/us-north-korea-unique-security-
guarantees-denuclearisation-10420266.
    \8\ U.S. Department of State, ``Secretary of State Michael R. 
Pompeo with Buck Sexton of iHeartMedia,'' July 22, 2019, https://
www.state.gov/secretary-of-state-michael-r-pompeo-with-buck-sexton-of-
iheartmedia/.
    \9\ U.S. Department of State, ``Agreed Framework between the United 
States of America and the Democratic People's Republic of Korea,'' 
October 21, 2004, https://2001-2009.state.gov/t/ac/rls/or/2004/
31009.htm.
    \10\ ``Joint Statement of the Fourth Round of the Six-Party 
Talks,'' September 19, 2005, http://www.atomicarchive.com/Reports/
Northkorea/JointStatement.shtml.
    \11\ Victor Cha, ``What Do They Really Want: Obama's North Korean 
Conundrum,'' Washington Quarterly, October 2009, https://
www.tandfonline.com/doi/full/10.1080/01636600903224837.
    \12\ Christy Lee, ``Can Trump Guarantee Kim Will Stay if North 
Korea Denuclearizes?'' VOA, May 23, 2018, https://www.voanews.com/usa/
can-trump-guarantee-kim-will-stay-if-north-korea-denuclearizes.
    \13\ Also referred to as a peace declaration. It would be a 
symbolic political document which, unlike a formal peace treaty, has no 
legal impact on the armistice ending the Korean War or the United 
Nations Command. The six-party talks had a working group devoted to 
striving for a peace treaty, until North Korea walked away from the 
negotiations in 2008.
    \14\ ``FM Spokesman on DPRK-U.S. High-level Talks,'' Korea Ryugilo 
Editorial Bureau, September 15, 2018, http://www.uriminzokkiri.com/
index.php?lang=eng&ftype=document&no=12300.
    \15\ Alex Ward, ``Exclusive: Trump Promised Kim Jong-un He'd Sign 
an Agreement to End the Korean War,'' Politico, August 29, 2018, 
https://www.vox.com/2018/8/29/17795452/trump-north-korea-war-summit-
singapore-promise.
    \16\ Bruce Klingner, ``Save Preemption for Imminent North Korean 
Attack,'' Heritage Foundation Backgrounder No. 3195, March 1, 2017, 
https://www.heritage.org/missile-defense/report/save-preemption-
imminent-north-korean-attack.
    \17\ North Korea Sanctions and Policy Enhancement Act of 2016, 
Public Law 114-122.

    Senator Gardner. Thank you, Mr. Klingner.
    Our final witness today is Dr. Sue Mi Terry, who serves as 
Senior Fellow and Korea Chair at the Center for Strategic and 
International Studies. As you can all tell today, CSIS is well 
represented on the panel. So thank you very much, Dr. Terry.
    Dr. Terry joined CSIS in 2017 as Senior Fellow for Korea 
after a distinguished career in intelligence policymaking and 
academia following Korean issues. Prior to CSIS, she served as 
a senior analyst on Korean issues at the CIA from 2001 to 2008 
where she produced hundreds of intelligence assessments, 
including a record number of contributions to the President's 
daily brief.
    She has received numerous awards for her leadership and 
mission support, including the CIA Foreign Language Award in 
2008.
    From 2008 to 2009, Dr. Terry was the Director for Korea, 
Japan, and Oceanic Affairs at the National Security Council 
under both Presidents George W. Bush and Barack Obama.
    Welcome, Dr. Terry, to the subcommittee. Thank you very 
much for your service. I look forward to your comments.

  STATEMENT OF DR. SUE MI TERRY, SENIOR FELLOW, KOREA CHAIR, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Terry. Thank you, Chairman, for this opportunity to 
appear before you on this important hearing.
    First, let me briefly address the prospects of resuming 
negotiations with North Korea, which is pretty dim at the 
present time. North Korea's current position reflects little 
appetite to return to diplomacy. Kim has vowed to maintain 
North Korea's nuclear threat while promising the world would 
witness a new strategic weapon it will possess in the near 
future, all the while issuing a warning and preparing his 
people that North Korea would have to go through a long, 
unprecedented period of difficulties with the United States.
    Kim did, however, leave a very small opening for diplomacy 
when he stated that he is willing to freeze or reduce his 
nuclear program if conditions are met.
    The chief challenge for us, however, is the fact that North 
Korea is highly unlikely to agree to any sort of agreement with 
the United States that does not involve maximal sanctions 
relief.
    At least direct dialogue and President Trump's three sit-
downs with Kim Jong-un have at least cleared up or confirmed a 
clear picture of what it is that North Korea seeks. In the near 
term, it seeks to secure significant sanctions relief from 
Washington and the international community, and of course, 
North Korea's long-term remains patiently waiting out for the 
world to accept North Korea as a responsible nuclear weapons 
power.
    At both the Singapore and the Hanoi summits, the U.S. 
dangled the prospect of economic development to show a 
possibility of a bright future that could lie ahead for North 
Korea if only it denuclearized. At the Hanoi summit, the U.S. 
side also floated the idea of ending or declaring the end to 
the Korean War and exchanging liaison offices with the North. 
But North Korea has made it crystal clear that what it cares 
about is sanctions relief.
    The question then is whether it is in the U.S.'s interests 
to pursue an interim deal that would at least freeze or roll 
back the North's nuclear program even if it means we have to 
give maximal sanctions relief to North Korea.
    Arms control experts currently debate on the utility of a 
freeze of North Korea's weapons production and whether it is 
worth for the U.S. to pursue an element of a deal that would 
include North Korea pledging to cease further production of 
fissile material, put a limit on existing stockpiles, and 
closing down the Yongbyon nuclear facility in return for 
significant sanctions relief.
    My own view is that this would be in theory perhaps a 
worthwhile objective to consider if, and only if, North Korea 
provides an inventory of its nuclear program, meaning 
facilities, weapons, fissile material, a road map for 
implementation, along with allowing international inspectors 
into North Korea to monitor all declared nuclear facilities, 
something that North Korea is highly unlikely to agree to. 
Otherwise, we will be trading sanctions concessions, a key 
leverage that we have, in return for nothing or very little. 
Absent a declaration of the North Korean nuclear program and 
the entry of international inspectors in there, there will be 
no way to know if North Korea were to covertly continue 
developing nuclear weapons or not.
    Thus, as long as the Kim regime remains defiant, I strongly 
believe that the U.S. and partners must not rush into such a 
deal with premature sanctions relief. In fact, we must continue 
to pursue diplomacy backed up by sustained economic and 
political pressure on the North. The goal is to continue an 
intensified, full, sustained, comprehensive sanctions 
enforcement to defund North Korea's nuclear and missile program 
targeting not only North Korea but also enablers and business 
partners using economic and diplomatic means. Using the 
strategy that brought Iran to the bargaining table as a model, 
we should expand pressure on North Korea's money launderers, 
facilitators, and enablers.
    In my written testimony, I mentioned we are currently well 
positioned to build on the existing North Korea Nuclear 
Sanctions and Enforcement Act.
    We should also, I think, give more power to 94 U.S. 
attorneys' offices to enforce sanctions law. In December 2017, 
for example, the chief district judge in Washington, DC ordered 
three Chinese banks to comply with federal grand jury and 
statutory subpoenas to their North Korea-related records. That 
was the first time a U.S. federal court has ordered Chinese 
banks to comply with subpoenas regarding suspected North Korean 
money laundering. Such a strategy, if enforced diligently, has 
the potential to close a hole in U.S. sanctions enforcement by 
scaring Chinese banks into enhanced due diligence and stop 
helping Pyongyang gain access to our financial system. These 
efforts should be pursued in conjunction with prioritizing 
human rights abuses in North Korea and expanding an information 
penetration campaign, which I will be happy to discuss further 
after our opening remarks.
    I would like to also discuss alliance management that my 
colleague just brought up and burden sharing issues further 
during the Q and A.
    As you are aware, at the moment tensions are running very 
high between the United States and South Korea over the Trump 
administration's, indeed, excessive demand that Seoul increase 
its payment by more than 400 percent, which is greatly 
straining our alliance relationship with South Korea.
    Thank you.
    [The prepared statement of Dr. Terry follows:]

               Prepared Statement of Sue Mi Terry, Ph.D.

    Chairman Gardner, Ranking Member Markey, and distinguished members 
of the Subcommittee, thank you for the opportunity to appear before 
this Subcommittee to discuss the prospects for the resumption of 
negotiations with North Korea, options for U.S. North Korea policy and 
how best the U.S. can encourage greater burden-sharing by our allies, 
South Korea and Japan.
   the prospects for the resumption of negotiations with north korea
    We are currently at an impasse with North Korea and we are facing 
dim prospects for the resumption of negotiations. But the chance of 
resuming negotiations is not zero. The United States can restart 
negotiations if we are willing to offer maximum sanctions relief in 
return for something less than the ``denuclearization'' of North Korea.
    That is the ambitious goal announced at the first Trump-Kim summit 
in Singapore in June 2018. But the North resisted coming up with a 
timetable for disarmament, a declaration of its existing stockpiles, 
and a road map--the sine qua non for true denuclearization. The only 
way to reduce the North Korean nuclear threat is to get International 
Atomic Energy Agency (IAEA) inspectors into North Korea to oversee the 
suspension, and sealing, of nuclear operations, followed by the 
installation of monitoring cameras. Kim Jong-un has shown no 
willingness to allow such intrusive measures. In Hanoi, Kim offered to 
close down nuclear facilities in Yongbyon--a fairly minimal 
concession--in return for maximum sanctions relief. President Trump 
rightly refused to take that deal and the summit ended in failure.
    Given that North Korea won't give up its nuclear arsenal, experts 
debate whether it is in the U.S. interest to pursue an interim deal 
that would freeze or roll back the North's nuclear-arms program. The 
elements of such a deal would include the North ceasing further 
production of fissile material, putting a limit on its existing 
stockpile, and closing down Yongbyon. The question is whether to grant 
partial or complete sanctions relief in return for such pledges. My own 
view is that this would be a worthwhile objective to consider if--and 
only if--North Korea would provide an inventory of its nuclear program 
and agree to international verification. Otherwise, we could be trading 
sanctions concessions in return for nothing. Absent a declaration of 
the North Korean nuclear program and the entry of international 
inspectors, there would be no way to know if North Korea were covertly 
continuing to develop nuclear weapons or not.
    But even if such a limited deal were possible before, it is 
unlikely now. North Korea's current position reflects little appetite 
to return to diplomacy. Although North Korea opted not to test any 
``Christmas gift'' following the expiration of Kim Jong-un's self-
proclaimed year-end deadline, Kim was hardly conciliatory at the Korean 
Workers' Party Central Committee Plenary Session. He vowed that ``the 
world will witness a new strategic weapon the DPRK will possess in the 
near future,'' and he threatened to walk away from his unilateral 
moratorium on nuclear and ICBM tests.\1\ Kim was also harshly critical 
of the continuation of U.S. sanctions, joint military exercises with 
South Korea, and U.S. weapons sales to South Korea, while issuing a 
warning to his people that North Korea will have to go through ``long 
unprecedented period of difficulties'' with the U.S., while vowing to 
maintain the country's ``nuclear deterrent'' to defend itself. 
Following the high-profile ruling party plenum, the North appointed Ri 
Son-gwon--formerly head of the North's Committee for the Peaceful 
Reunification of the Country--as foreign minister.\2\ He is known for 
his more hardline stance towards the U.S. and South Korea as well as 
his military, not diplomatic, background. The plenum speech and Ri's 
subsequent appointment reflect Kim's fundamental skepticism about 
further negotiations with the Trump administration at least for the 
time being. Furthermore, at the present moment, the North is distracted 
by trying to prevent a coronavirus outbreak. All of these factors leave 
the U.S. little maneuvering room for resuming negotiations with North 
Korea at the present time.
    This does not, however, mean there is no prospect for dialogue with 
the North or that Kim is not interested in a deal with the Trump 
administration in this election year. Kim did leave a small opening 
when he stated that he is willing to ``freeze'' or reduce his nuclear 
program if ``conditions are met.'' The chief challenge for us, however, 
is the fact that the North is highly unlikely to agree to any sort of 
agreement that does not include maximal sanctions relief without 
offering the kind of verification that would be needed, even for a 
nuclear freeze deal. Such intransigence by the North--demanding maximal 
sanctions relief up front--explains why the Stockholm talks--the first 
talks in nearly 8 months--broke down after only 8 1/2 hours. The North 
Korean delegates stormed out, and Pyongyang subsequently said they 
wouldn't resume the ``sickening'' negotiations with the U.S. Thus, if 
there is to be any kind of agreement with the North this year, we are 
only left with the option of giving the North massive sanctions relief 
up front for little in return.
    Compounding the problem is the high likelihood of the North 
returning to provocations in due course to continue to dial up pressure 
on Washington. These are likely to be ``lesser'' provocations, such as 
a medium-range missile test over Japan, submarine-launched ballistic 
missile, or a satellite launched into orbit, and not necessarily 
nuclear weapons or ICBM tests, which Kim knows will cross President 
Trump's red line. (President Trump dismissed a dozen short-range 
ballistic missile tests last year as unimportant.) Moreover, while the 
negotiation has stalled, the North has continued to work on its nuclear 
and missile program, while evading sanctions by pouring resources into 
cyber-program that is both a ``potent weapon and a revenue generator.'' 
\3\ In addition to continuing to produce enough nuclear material last 
year for a dozen or more nuclear weapons, the North's testing of short-
range missiles last year--five of which were new--helps to advance its 
solid fuel and guidance systems and develop capabilities to thwart 
short-range missile-defense systems.
   china and russia's compliance with u.n. security council sanctions
    Kim Jong-un likely thinks that he can bide time, probably 
calculating that a return to the ``fire and fury'' of 2017 is unlikely 
this year because President Trump's reelection campaign is in progress 
and everyone else in the region has moved on. China, Russia, and even 
our ally, South Korea, have no interest in a continuing pressure 
campaign after the rapprochement with the North. They are, in fact, 
making efforts to reduce tensions by giving the North sanctions relief 
without the North having taken a single concrete step towards 
denuclearization.
    China implemented stricter sanctions enforcement in 2017, but 
following multiple meetings between Chinese leader Xi Jinping and Kim 
(Kim has visited China four times and Xi has visited Pyongyang once), 
Beijing has relaxed pressure on the North considerably.\4\ According to 
a report from the U.N. Panel of Experts, North Korea continues to 
circumvent U.N. sanctions on shipping and trade, with North Korean 
vessels hauling coal and oil to China and engaging in ship-to-ship 
transfers with Chinese vessels to evade sanctions. China also 
reportedly shipped more than 10,000 tons of oil to North Korea in the 
last 4 months of 2019, according to new data made public by the United 
Nations. China exported 22,739 tons of refined petroleum to North Korea 
in 2019, an 18 percent increase from the previous year, when the total 
was 19,200 tons.\5\ While these imports did not violate sanctions, they 
signal Beijing's current impatience with the sanctions regime against 
the North. China last year also exported at least $75 million in 
tobacco products, $30 million worth of wine, beer, spirits, and other 
alcohol, and $50 million worth of medical supplies to the North.\6\
    Russia is, likewise, working hard to relax sanctions against North 
Korea. Overall trade between Russia and North Korea increased by 20 
percent in 2019, with North Korea importing more than $42 million in 
goods from Russia.\7\ According to new data made public last week by 
the United Nations, Russian monthly oil exports to North Korea rose 
more than 300 percent in December 2019.\8\ That same month Russia 
teamed up with China to circulate a draft resolution in the United 
Nations Security Council that would lift several major categories of 
sanctions under U.N. Resolution 2397 and other sanctions ``related to 
the livelihood of the civilian population of DPRK.'' \9\ It would 
essentially lift sanctions prohibiting North Korea from ``exporting 
statues, seafoods and textiles'' and would ``exempt inter-Korean rail 
and road cooperation projects.''
    Both Russia and China skirted the requirement to send North Korean 
laborers home by the end of 2019; UNSC Resolution 2397 mandated that 
member states repatriate all North Koreans earning currency in their 
territory by the end of the year.\10\ Yet, approximately a thousand 
North Korean workers continue to remain in Russia and thousands of 
North Korean nationals also continue to travel to Russia on student, 
tourist, and work visas. U.N. member states are required to submit a 
final report on the repatriation of North Korean workers to the United 
Nations sanctions committee by March 22. There is a chance that both 
China and Russia, the two largest countries hosting North Korean 
laborers, will use the coronavirus outbreak as the reason for ``delayed 
and insufficient repatriation of the North Korean workers.'' China has 
not made public the data on its North Korea labor force other than 
saying during the midterm report last year that it has repatriated more 
than half of some 50,000 workers in China.\11\
    To a lesser extent, South Korea has also pushed for giving the 
North sanctions relief, saying that Washington should not dismiss China 
and Russia's proposed resolution on sanctions relief. The Moon Jae-in 
Administration has been recently making a case to move ahead on inter-
Korean projects with the North--particularly the railroad project--as 
well as pushing for ``independent tourism'' with Pyongyang. Inter-
Korean relations have soured in the past year amid stalled U.S.-North 
Korea denuclearization talks, but the Moon administration is eager to 
jump start dialogue with the North.\12\
 where do we go from here? limited options for u.s. north korea policy
    Direct dialogue and meetings with Kim Jong-un have confirmed a 
clear picture of what it is that the North seeks. In the near term, it 
seeks to secure significant sanctions relief from Washington and the 
international community. We know by now that the North is not 
interested in giving up its nuclear weapons program. Despite diplomacy 
and summitry since the beginning of 2018, achieving complete 
denuclearization remains highly unlikely because Kim continues to view 
nuclear and missile programs as essential to preserving the regime and 
expanding its power.
    At both the Singapore and Hanoi summits, the U.S. dangled the 
prospect of economic development to show a possibility of a ``bright 
future'' that could lie ahead for North Korea if only it denuclearized. 
The U.S. side also floated the idea at the Hanoi summit of declaring an 
end to the Korean War and exchanging liaison offices with the North. 
But the North has made clear that all it cares about is sanctions 
relief now, without having to give up its nuclear program. The North's 
long-term goal is to patiently wait for the world to accept it as a 
``responsible'' nuclear weapons power while banking that the legitimacy 
the North has already been enhanced by Kim's three sit-downs with 
President Trump. North Korea wants as much economic normalization as 
possible without actually giving up the nuclear and missile programs 
that, in Kim's view, guarantee his regime's survival--and his own. In 
short, Kim wants to have his cake and eat it too.
    As stated earlier, the main question we need to then ask is whether 
the U.S. should seek an interim agreement with the North even though 
the North is unlikely to denuclearize. Should we seek and accept either 
a cap on the North's existing program or, at most, partial 
denuclearization in return for giving significant sanctions relief to 
the North? There is a debate among Korea watchers on the utility of a 
``freeze'' on North Korea's nuclear weapons production. Proponents of 
arms control and freeze deal advocates argue that capping North Korea's 
arsenal would one day lead to denuclearization. Even if it does not 
lead to full denuclearization, the advocates say that capping the 
program will reduce the threat posed by North Korea and therefore is 
the most realistic policy we should pursue after decades of failed 
policies to stop the North's nuclear program.
    My own view is that it may be worthwhile to consider whether some 
targeted sanctions relief in exchange for a genuine freeze of the 
North's nuclear and missile program is warranted as an interim first 
step, with the goal of moving toward verified dismantlement of some 
important facilities and nuclear weapons. This is better than allowing 
the North to grow its program unchecked as it is currently doing. At 
the same time, however, I strongly believe that the U.S. and its 
partners must not rush into such a deal with premature sanctions 
relief; history shows us that Kim may be tempted to cheat on any deal 
and if we grant premature sanctions relief, we may not achieve a 
genuine halt to the North's nuclear and missile programs. We should 
pursue such an interim agreement only after Kim has shown a willingness 
to provide an inventory of his nuclear program (facilities, weapons, 
and fissile material stockpiles) and a roadmap for implementation along 
with an agreement to allow international inspectors into his country to 
monitor all declared nuclear facilities.
    Caution is in order because in the past the North has repeatedly 
sought and received sanctions relief but our agreements with the North 
fell apart over verification. The most notable example is when the U.S. 
imposed sanctions on Banco Delta Asia (BDA), a Macao-based bank in 
September 2005 but subsequently reversed enforcement against BDA in 
order to make progress with the North, only to see the agreement fall 
apart. In fact, it is prudent for us to remember that previous deals 
with the North were heralded as strategic successes until they fell 
apart. The 1994 Agreed Framework is an important benchmark. It fell 
apart after only partial U.S. implementation and North Korean cheating. 
The point is even if we have an interim deal with the North, we may not 
know how durable any agreement with the North is for several years.
    We must be clear-eyed about potentially significant consequences to 
rushing into such a freeze deal with maximal sanctions relief. If the 
interim freeze deal does not translate to a denuclearization deal (the 
most likely scenario), we would have then abandoned the most important 
leverage we have with the North while basically giving the North a de 
facto recognition and acceptance as a nuclear weapons state, which in 
turn poses a regional proliferation risk in the future. It is not 
inconceivable that if South Korea and Japan lose confidence in the U.S. 
nuclear umbrella, they could one day be compelled to field their own 
nuclear weapons. It also sends the wrong message to other rogue actors 
pursuing nuclear capabilities and seeks to undermine the broader U.S.-
based international order.
    Again, I think these risks are worth running, but only for a true 
deal to stop production of fissile material and to end nuclear and 
missile testing, that is verified by international inspectors--
something that the North is unlikely to agree to. In the meantime, we 
must continue to pursue diplomacy backed up by sustained economic and 
political pressure on the North. There is simply no viable alternative 
at the moment to the deterrence and containment of North Korea.
    This means, first and foremost, strengthening the coalition of U.N. 
member states in the sanctions campaign to deplete the North's hard 
currency as long as the regime remains defiant as it is today.
    The goal is to continue and intensify sanctions enforcement to 
defund the North's nuclear and missile program and prevent 
proliferation, targeting not only North Korea but also its enablers and 
business partners using economic and diplomatic means. To this end, the 
U.S. should be prepared to use any future provocations by the North as 
a reason for seeking broader legal authorities in UNSCRs to prevent 
outward proliferation, while accelerating secondary sanctions against 
third-party entities assisting North Korea, including three dozen 
Chinese and Russian entities that the Treasury Department has deferred 
from imposing sanctions on.
    Since the Singapore Summit in May 2018, President Trump has put a 
freeze on significant new sanctions designations, but there are also 
still many more North Korean entities referenced by Trump himself that 
could be sanctioned. We are currently well positioned to build on the 
sanctions in the North Korea Nuclear Sanctions and Enforcement Act 
(NKSPEA). Congress passed a tough new bill, the ``Otto Warmbier North 
Korea Nuclear Sanctions Act of 2019'' as an amendment to the National 
Defense Authorization Act for 2020, which raises the legal pressure on 
the Chinese banks. At the core of the Warmbier Act, which builds on the 
previous Otto Warmbier Banking Restrictions Involving North Korea 
(BRINK) Act, is a list of sweeping categories of financial enablers 
which are helping the North to evade U.N. sanctions.\13\ The United 
States needs to send a simple, direct message to foreign banks and 
firms: You can do business with North Korea or you can do business with 
the United States, but you can't do business with both--so choose which 
you prefer. If you choose to support the North Korean regime, you will 
be held to account.
    Using the strategy that brought Iran to the bargaining table as a 
model, we should expand pressure on the North's money launders, 
facilitators, and enablers. We should give more power to the 94 U.S. 
Attorneys' offices to enforce the sanctions law, as Joshua Stanton, an 
attorney who has assisted members of both parties with the drafting of 
North Korea sanctions legislation, has suggested. In December 2017, the 
Chief District Judge in Washington, DC, ordered three Chinese banks to 
comply with federal grand jury and statutory subpoenas of their North 
Korea-related records. Stanton notes that this is the first time a U.S. 
federal court has ordered Chinese banks to comply with subpoenas 
regarding suspected North Korean money laundering. Such a strategy, if 
enforced diligently, has the potential to close a hole in U.S. 
sanctions enforcement by scaring China's big banks into ``enhanced due 
diligence'' and stop helping Pyongyang gain access to our financial 
system.\14\ When North Korean funds are seized and forfeited, they can 
then be used as a ``pot of gold'' for the disbursement of incremental, 
monitored, humanitarian-based aid or sanctions relief when there is a 
right opportunity.
    While not giving up on dialogue with the North, the U.S. must have 
a strategy to deal with the most likely probability that Kim is 
pursuing what his father and grandfather have pursued with previous 
U.S. administrations--exploiting diplomacy only to buy time until he 
can secure international acceptance of the North as a full-fledged 
nuclear power. We need a strategy to contain and deter and if, 
necessary, compel North Korea to reduce the threat, particularly the 
potential spread of nuclear weapons to rogue states or terrorist 
groups. To this end, the U.S. should engage law enforcement, coast 
guards, navies (including those of South Korea and Japan), and broader 
U.S. assets to create ``rings'' of preventive action around the North 
with continuously available surveillance and interdiction efforts.
    Such a strategy of giving diplomacy a best possible try but being 
prepared to deter and gradually rollback the North Korean threat is a 
sustained, long-term approach that plays to U.S. strengths, exploiting 
our opponent's vulnerabilities, and sending a message to rogue regimes 
around the world that there is a meaningful cost to nuclear 
proliferation. This strategy would also continue to deplete Pyongyang's 
hard currency which is used to underwrite the lifestyle of the North 
Korean elites whose support is essential for Kim to remain in power; 
deter the regime from rash action; strengthen our alliances in Asia for 
the next generation; and increase the costs to those states and 
companies which continue to subsidize Pyongyang.
    These efforts should be pursued in conjunction with prioritizing 
human rights abuses in North Korea and expanding an information 
penetration campaign. In the midst of diplomacy and summitry of the 
past few years, North Korea human rights has taken a back seat. Last 
December, an effort to put the North Korean human rights issue back on 
the agenda of the UNSC failed to achieve the nine-vote minimum. The 
U.S., which was the potential ninth vote, pulled back its support to 
hold a discussion on North Korea's human rights abuses last minute, 
presumably so as not to complicate President Trump's delicate diplomacy 
with Kim Jong-un. The proposed meeting of the Security Council had been 
intended to put a spotlight on North Korea on Human Rights Day, 
December 10.\15\ After the International Criminal Court (ICC) ruled in 
December 2019 that it ``lacks the jurisdiction to investigate North 
Korean human rights issues and the supreme leader of North Korea,'' 
there is even less impetus to pressure North Korea on human rights. The 
ICC said in a report that ``the alleged crimes referred to the ICC were 
neither committed on the territory of an ICC member state nor by a 
national of a member state.'' \16\
    Despite such setbacks, the U.S. must continue to combine a focus on 
security and on human rights into a single, unified approach. The North 
continues to be one of the world's most repressive states. The threat 
from North Korea is not only a nuclear and missile threat; rather, the 
threat has always emerged from the nature of the Kim regime itself. 
Focusing on human rights is not only a right thing to do, it also 
provides a means of applying pressure to change North Korea beyond what 
economic sanctions can apply. Recall how West Germany established a 
Central Registry of State Judicial Administrations to systematically 
collect cases of human rights abuses in East Germany in order to 
pressure the Communist regime. Or how the international community waged 
a global campaign to isolate the apartheid regime in South Africa, 
ultimately leading to a change of regime.
    In similar fashion, an international campaign can challenge the Kim 
Jong-un regime's legitimacy based on its failure to provide for the 
needs of the people.
    Meanwhile, steps should be taken to come up with a comprehensive 
strategy to help the people of North Korea further break the 
information blockade imposed by the state. Historically, the North 
Korean regime has been able to maintain tight control over the 
population by indoctrination and maintaining a monopoly on information. 
But the Kim regime has been unable to stop unofficial information from 
seeping into the North over the porous border with China, chipping away 
at regime myths and undermining the solidarity of the North Korean 
people behind Kim. Many North Korean elites, as well as ordinary 
citizens, are already watching South Korean soap operas, and listening 
to K-pop and American broadcasts. We should increase our efforts to 
support radio broadcasts and other means to transmit information into 
North Korea. We should work with various governments and tech companies 
such as Google and Facebook to find creative ways to get information 
into North Korea.
         how best can the u.s. encourage greater burden-sharing
                        by south korea and japan
    South Korea and Japan are our most important strategic and economic 
partners in Asia. The U.S.-ROK Mutual Defense Treaty was signed in 1953 
at the end of the Korean War, which commits the United States to help 
South Korea defend itself, particularly from North Korea. The alliance 
has given the United States a partner and a forward presence in Asia 
that helps it promote U.S. interests in East Asia and the world. South 
Korean troops have fought in various U.S.-led conflicts, including 
Vietnam, Iraq, and Afghanistan. Approximately 28,500 U.S. troops are 
currently based in South Korea, and South Korea is included under the 
U.S. ``nuclear umbrella,'' also known as extended deterrence. Japan is 
also a significant partner for the U.S., particularly in security 
areas, including hedging against China and countering threats from 
North Korea. The U.S.-Japan military alliance, formed in 1952, grants 
the U.S. military the right to base U.S. troops--currently around 
54,000 strong--and other military assets on Japanese territory, 
undergirding the ``forward deployment'' of U.S. troops in Asia. In 
return, the U.S. has pledged to protect Japan's security.
    At the moment, tensions are running high between the U.S. and South 
Korea over the Special Measures Agreement (SMA) on how to divide the 
costs of basing U.S. troops in South Korea. The Trump Administration 
has demanded Seoul increase its payments by more than 400 percent, and 
President Trump publicly said it is debatable whether the U.S. troop 
presence is in U.S. interests. Tokyo fears similar demand will be made 
on Japan shortly. Under the current SMA, covering 2016-2021, Japan is 
contributing about $1.72 billion per year, but the two countries likely 
will begin negotiations over the next SMA later in the year. Japan 
anticipates that the Trump Administration will also demand a 400 
percent increase.
    South Korea's bipartisan and public resistance to the Trump 
administration's desire for a four- to five-fold increase in South 
Korean payments is strong. South Korea currently spends 2.6 percent of 
its gross domestic product on its defense, which is the highest such 
figure devoted to defense spending of any American treaty ally in the 
world (and fourth largest in the world). Seoul has traditionally paid 
for about 50 percent (over $800 million annually) of the total non-
personnel costs of the U.S. military presence. These figures do not 
include the $10 billion that South Korea spent to build the largest 
overseas U.S. military base in Pyeongtaek, the ``largest power 
projection platform in the Pacific,'' according to the U.S. Army, for 
which South Korea does not charge rent.\17\ Meanwhile, Japan, due to 
constraints imposed by the United States after World War II, does not 
spend as large as a percentage but still is the 15th largest defense 
spender world-wide and pays for about 75 percent of the cost of 
deployed U.S. forces.
    While the number of U.S. military personnel in South Korea has 
decreased from 43,000 to 28,500 since 1991, South Korea's SMA 
contributions increased by 6.3 percent in the same period. SMA 
negotiations generally occur every 5 years, but the current talks 
between Washington and Seoul aim to renew an accord which was signed in 
February of last year. The deal signed last year already raised Seoul's 
previous annual contribution by approximately 8 percent. South Korea's 
payments, which were a combination of in-kind and cash contributions, 
fell into three categories--labor for the Koreans who work on U.S. 
bases, logistics, and construction of U.S. facilities--but in order to 
meet the new demands by the Trump administration, negotiators are 
seeking a new framework for burden-sharing, including adding a new 
category, such as ``readiness,'' to justify the new number being 
demanded by President Trump. There have been six rounds of negotiations 
since last year and the 7th round is about to start, but currently the 
U.S. and South Korea are at an impasse. The SMA negotiations are at a 
critical stage because if there's no agreement soon, the contingency 
funds to pay for South Korean workers servicing U.S. bases will run out 
by March 31 and these workers will be furloughed by April 1.
    The problem for Seoul is that the Moon Jae-in administration has to 
contend with the public and even the pro-U.S. opposition parties, who 
are united in strongly opposing the Trump administration's SMA demands. 
One poll in November 2019 showed 96 percent of the public opposed the 
hike.\18\ A CSIS Beyond Parallel and Predata study has found that the 
U.S. demands for $5 billion are generating the highest-ever levels of 
social media and video commentary critical of U.S. forces in Korea.\19\
    Even if the Moon administration agrees to step up and pay 
substantially more to satisfy demands made by President Trump, it will 
unlikely be approved by the National Assembly. A nation-wide National 
Assembly election will be held in Seoul on April 15, which further 
complicates the negotiations. President Moon belongs to the ruling 
Minjoo Party, which controls a plurality of seats in the National 
Assembly, but his approval ratings have fallen to about 47 percent, due 
in part to discontent over South Korea's slowing economic performance 
and political scandals involving his Cabinet.\20\ Given his tenuous 
political position, he is extremely reluctant to meet Trump's deeply 
unpopular demands for a steep increase in South Korean SMA 
contributions. President Trump's demands, paired with his criticism of 
South Korea (the president, for example, was irate that the South 
Korean film ``Parasite'' won the Academy Award for Best Picture) and 
the value of the U.S.-South Korea alliance, have caused deep concerns 
in Seoul about the future of the alliance with the United States.
    How should the U.S. navigate these contentious waters of burden-
sharing negotiations when sharp differences remain between Washington 
and Seoul, and later likely between Washington and Tokyo? Michael 
O'Hanlon from Brookings writes that South Korea might indeed spend $5 
billion more a year, but it should be on its own forces instead of 
ours.\21\ So what we should do first and foremost is to support both 
Korea and Japan's enhancement of their own defense capabilities by 
purchasing U.S. arms. If South Korea and Japan, as the two linchpins of 
the U.S. alliance in Northeast Asia, improve their independent 
deterrence against common threats such as North Korea and China, it 
will result in reducing the security burden on the U.S. in the region.
    South Korea is among the top customers for U.S. Foreign Military 
Sales (FMS) with approximately 75 percent of its total foreign defense 
purchases coming in the form of FMS and commercial sales from U.S. 
companies.\22\ South Korea purchases more than $5 billion in American 
weapons every year. Its arms imports from the U.S. totaled $30.3 
billion during the 2006-2018 period, and South Korea has proposed 
additional imports of U.S. arms of about $10.6 billion in the 2019-2021 
time period. But there is more South Korea can do, particularly in 
upgrading key parts of its command and control. Japan, too, is also a 
major purchaser of U.S. defense equipment. Between 2009 and 2018, Japan 
was among the top 10 recipients of deliveries of major conventional 
weapons from the United States, spending an average of $363.9 million 
per year, which accounts for between 83 percent and 97 percent of 
Japan's arms imports. It has also made significant defense reforms in 
recent years, but more strides are needed to enhance interoperability 
with U.S. forces. We should acknowledge the billions of dollars already 
committed by South Korea and Japan and continue to encourage these 
efforts which will contribute not only to South Korean and Japanese 
security but also provides benefits to the U.S.
    The United States should not accuse South Korea and Japan of being 
``free-riders'' who are not pulling their own weight. Rather, the U.S. 
needs to make an argument to our allies that contributing more to 
cover, for example, local and incremental costs associated with the 
presence of U.S. forces on their territories, as well as contributing 
to training, maintenance, and equipment of the American forces, are in 
their security interest. South Korea is also looking to make more 
indirect contributions by paying, for example, the cost for anti-piracy 
operations in the Gulf of Aden and sending South Korean troops to the 
Strait of Hormuz. These efforts should be further encouraged. Instead 
of continuing excessive demands that will rupture our alliances, the 
U.S. should encourage more realistic, incremental increases in their 
burden sharing contributions, while making clear that Americans greatly 
value these alliances and appreciate all that South Korea and Japan 
contribute to our mutual security. President Trump's overheated tweets 
do not help to preserve these vital relationships and in fact 
needlessly exacerbate tensions with our closest allies.

----------------
Notes

    \1\ ``Report on 5th Plenary Meeting of the 7th Central Committee of 
the Workers' Party of Korea'', Rodong Sinmun, January 1, 2020, https://
kcnawatch.org/newstream/1577861427-214400281/report-on-5th-plenary-
meeting-of-7th-c-c-wpk/?t=1581967486984
    \2\ Victor Cha and Dana Kim, ``Impact Player: Ri Son-gwon,'' CSIS 
Korea Chair, January 20, 2020, https://www.csis.org/analysis/impact-
player-ri-son-gwon
    \3\ David E. Sanger, ``North Korea's Internet Use Surges, Thwarting 
Sanctions and Fueling Theft,'' The New York Times, February 9, 2020, 
https://www.nytimes.com/2020/02/09/us/politics/north-korea-internet-
sanctions.html
    \4\ ``Dataset: China-North Korea High Level Visits Since 1953,'' 
CSIS Beyond Parallel, https://beyondparallel.csis.org/china-dprk-high-
level-visits-since-1953-2/
    \5\ 1718 Sanctions Committee, ``Supply, sale, or transfer of all 
refined petroleum products to the DPRK,'' United Nations Security 
Council, https://www.un.org/securitycouncil/sanctions/1718/supply-sale-
or-transfer-of-all-refined-petroleum
    \6\ These numbers are according to recent trade data published by 
the Chinese General Administration of Customs (GAC) and analyzed by NK 
News, an American subscription-based website that provides news and 
analysis about North Korea. See, for example, https://www.nknews.org/
2020/02/north-korea-imported-75-million-in-tobacco-products-from-china-
last-year-data/
    \7\ ``Russia's reported oil exports to North Korea rise in 
December: U.N.,'' Arirang News Network, January 20, 2020, https://
www.youtube.com/watch?v=OT131TEMjGA
    \8\ 1718 Sanctions Committee, ``Supply, sale, or transfer of all 
refined petroleum products to the DPRK,'' United Nations Security 
Council. https://www.un.org/securitycouncil/sanctions/1718/supply-sale-
or-transfer-of-all-refined-petroleum. Also see NK News, https://
www.nknews.org/pro/russias-reported-oil-exports-to-north-korea-rise-in-
december-un/?t=1582372912106
    \9\ Michelle Nichols, ``China, Russia propose lifting some U.N. 
sanctions on North Korea, U.S. says not the time,'' Reuters, December 
16, 2019, https://www.reuters.com/article/us-northkorea-usa-un/china-
russia-propose-lifting-of-some-u-n-sanctions-on-north-korea-
idUSKBN1YK20W
    \10\ United Nations Security Council Resolution 2397 (2017), 
https://www.un.org/undpa/en/speeches-statements/22122017/
resolution2397%282017%29
    \11\ The U.S. has estimated North Korea was earning more than $500 
million a year from nearly 100,000 workers abroad, of which some 50,000 
were in China and 30,000 in Russia. The U.S. in January imposed 
sanctions on two North Korean entities, including China-based facility 
in Beijing, saying they were involved in sending North Koreans to work 
abroad in violation of U.N. sanctions. David Brunnstrom, ``China fails 
to repatriate North Korea workers despite U.N. sanctions--U.S. 
official,'' Reuters, January 22, 2020, https://www.reuters.com/article/
uk-northkorea-usa-china-sanctions/china-fails-to-repatriate-north-
korea-workers-despite-u-n-sanctions-u-s-official-idUKKBN1ZL34I
    \12\ In this Yonhap News article, Seoul suggests it may push for 
joint projects with the North independently from Washington this year. 
``Seoul to expand room to move independently on inter-Korean issues,'' 
January 8, 2020, https://en.yna.co.kr/view/AEN20200108003800325
    \13\ 116th Congress First Session, H.R. 2500, pp. 1126-1144, 
https://www.congress.gov/116/bills/hr2500/BILLS-116hr2500eh.pdf. Also 
see Joshua Stanton's One Free Korea with extensive background, 
explainer, and links, in particular, ``The Wambier Act could raise the 
pressure on Kim Jong-un dramatically, whether Donald Trump likes it or 
not,'' December 20, 2019, https://freekorea.us/2019/12/20/the-warmbier-
act-could-raise-the-pressure-on-kim-jong-un-dramatically-whether-
donald-trump-likes-it-or-not/
    \14\ Joshua Stanton, ``OFK Exclusive: Court orders three Chinese 
banks to comply with subpoenas for North Korea-related records,'' One 
Free Korea, April 30, 2019, https://freekorea.us/2019/04/30/ofk-
exclusive-court-orders-three-chinese-banks-to-comply-with-subpoenas-
for-north-korea-related-records/.
    \15\ Edward Wong and Choe Sang-hun, ``Trump Officials Block U.N. 
Meeting on Human Rights Abuses in North Korea,'' New York Times, 
December 9, 2019, https://www.nytimes.com/2019/12/09/world/asia/north-
korea-trump.html
    \16\ Kim So-hyun, ``International Criminal Court Says It Has No 
Jurisdiction Over North Korean Leader,'' The Korea Herald, December 6, 
2019, http://www.koreaherald.com/view.php?ud=20191206000481
    \17\ John Letman, ``USAG Humphreys: The Story Behind America's 
Biggest Overseas Base,'' The Diplomat, November 16, 2017, https://
thediplomat.com/2017/11/camp-humphreys-the-story-behind-americas-
biggest-overseas-base/
    \18\ William Gallo, ``Poll: S. Koreans Oppose Trump's Cost-sharing 
Demands, but Support Alliance,'' Voice of America, November 6, 2019, 
https://www.voanews.com/east-asia-pacific/poll-s-koreans-oppose-trumps-
cost-sharing-demands-support-alliance
    \19\ Victor Cha, Eric Falcon and Bryce Pedersen, ``U.S.-South Korea 
Cost-Sharing Negotiations Impacting Korea Public Support for U.S. 
Security Umbrella,'' CSIS Beyond Parallel, November 26, 2019, https://
beyondparallel.csis.org/u-s-south-korea-cost-sharing-negotiations-
impacting-korean-public-support-for-u-s-security-umbrella/. Predata is 
a predictive analytics company that uses machine learning to surface 
early warnings hidden in online behavior.
    \20\ ``Moon's approval rating stands at 47%,'' Hankyoreh, January 
20, 2020, http://english.hani.co.kr/arti/english_edition/e_national/
925067.html
    \21\ Michael E. O'Hanlon, ``What is Going on With the United States 
Alliance with South Korea?'', Brookings Institution, November 27, 2019, 
https://www.brookings.edu/blog/order-from-chaos/2019/11/27/what-is-
going-on-with-the-united-states-alliance-with-south-korea/
    \22\ ``U.S.-South Korea Alliance: Issues for Congress,'' 
Congressional Research Service, December 10, 2019, https://
crsreports.congress.gov/product/pdf/IF/IF11388

    Senator Gardner. Thank you, Dr. Terry. And we will begin 
with questions from the panel.
    When the Obama administration had approached North Korea, 
they had developed what was, I guess, called a doctrine of 
strategic patience, which could be described, I guess, as an 
approach that would just ignore, keep out of sight, out of mind 
the violations of international law, U.S. law as it relates to 
North Korea, and we would just wait patiently for North Korea 
to change its mind and change its behavior. Maybe the sanctions 
would work to effect that change, but regardless, the outcome 
was the same. Strategic patience failed to materialize any kind 
of a new result.
    When the Trump administration took over, they began 
applying maximum pressure in part because we had already 
changed the law under President Obama away from strategic 
patience toward one of maximum pressure beginning with the 
first time ever mandatory sanctions on North Korea through the 
North Korea Sanctions Policy Enhancement Act. And so we began 
that pressure onto the regime, which led to a number of what 
seemed to be at the time results that looked like they were 
heading toward the right direction of denuclearization.
    Last February, we had already signed the Singapore joint 
statement and held a second summit in Hanoi. That is over the 
past couple of years. The President chose to walk away from a 
bad deal at Hanoi, but that choice was not without costs.
    In the meantime, North Korea has continued to process 
fissile material for nuclear warheads, to improve its short-
range missile capabilities, to devise new means of 
circumventing sanctions. In exchange for those three things, 
the United States has halted or reduced joint exercises, 
tolerated short-range missile tests that threaten South Korea 
and Japan, refrained from designating additional sanctions 
violators, refrained from enforcing those sanctions that are 
already in effect.
    Mr. Klingner, I will start with you. Dr. Terry, if you 
would like to add to this question. Ambassador King, I do not 
know if this is something you want to join in or not, but feel 
free to.
    In your opinion, are we better off today than we were the 
day before the Singapore summit was announced as it relates to 
North Korea policy?
    Mr. Klingner. No, sir. We face a greater North Korean 
nuclear and missile threat than we did before.
    The common denominator in all of the previous failures with 
negotiations with North Korea has been Pyongyang's refusal to 
abide by its commitments, by U.N. resolutions, and its 
cheating. So no political party or administration has a 
monopoly on good or bad ideas with North Korea.
    Any U.S. policy should be a comprehensive, integrated 
strategy using all the instruments of national power, often 
referred to as DIME, diplomatic, information, military, and 
economic. I think both the strategic patience policy and the 
maximum pressure policy have those components, but really they 
have been weakly implemented on all cylinders of the engine.
    So as we wait for North Korea to come back to negotiations, 
we need to have the pressure to not only enforce our laws and 
impose penalties to those that violate them, but to constrain 
proliferation, as well as the inflow of prohibited items for 
their programs. If you do not sufficiently apply the pressure, 
then you are undermining the potential for a diplomatic 
resolution.
    Senator Gardner. Thank you.
    Dr. Terry.
    Dr. Terry. I would say in some ways I completely agree with 
my colleague here, but in some ways I might say we might even 
be worse off in this sense. I think in 2017, President Trump--
fire and fury that no one liked. That option was excessive. But 
I think the maximum pressure policy was effective and was 
working. We saw for the first time really China implementing 
sanctions in the fall of 2017.
    My only wish is that we should have tried that a little bit 
longer before we too quickly returned to summitry and 
diplomacy. Whether we are trying diplomacy or maximum pressure, 
it has to be consistent for some number of years. I think in 
Iran's case, it took 3 years of maximum pressure. We too 
quickly transitioned to summitry and diplomacy, and now look 
what we got.
    Even though Kim Jong-un had stopped the ICBM and nuclear 
tests, he has also gained in the last several years. He has 
normalized his regime. We have completely forgotten that this 
is a man that has been purging how many elites now. He has 
killed his uncle. He has assassinated his half-brother. But now 
he all of a sudden looks normal. He went to China three times. 
Even Xi Jinping has visited Pyongyang. He has now met with 
Putin. In Singapore he is taking a selfie of himself. Now we 
have normalized him. We have normalized the regime and human 
rights have now taken completely a back seat. So on one hand, 
while we made no progress in terms of denuclearization, we did 
not curb the nuclear and missile program, yet Kim has succeeded 
in normalizing the regime and normalizing himself as a leader.
    Senator Gardner. Ambassador King.
    Ambassador King. One of the things I think we need to be 
careful about is assuming that human rights is something that 
we can do when we have the security situation solved. I would 
argue that human rights is part of the solution to the problem. 
One of the greatest difficulties in North Korea is the 
unresponsiveness of the North Korean regime to the interests 
and needs of its own people, and human rights is something we 
need to do to press the North Koreans in that direction. Access 
to international information, knowledge about what is going on 
outside North Korea is essential if we are going to put 
pressure on Kim Jong-un internally to move in the right 
direction on these things. So it seems to me that ignoring 
human rights, which is unfortunately what we have done over the 
last 3 or 4 years, is not solving the problem but contributing 
to the difficulty of coming up with a solution.
    Senator Gardner. Thank you, Ambassador.
    I mentioned those things I feel that the United States has 
given up on. We have given up, halted, or reduced joint 
exercises. Obviously, the coronavirus may have a different 
impact going forward but a completely different reason. The 
U.S. has tolerated short-range missile tests that threaten 
South Korea and Japan. We have refrained from designating 
additional sanctions and violators. We have failed to address--
the administration has failed to address the human rights 
issues as they should, refrained from enforcing those sanctions 
already in effect.
    Am I missing what North Korea has given to us? They have 
asked for relief, relief, and relief. We have given all these 
things. What have we received in return from North Korea? Mr. 
Klingner?
    Mr. Klingner. I would argue we really have received 
nothing. As Dr. Terry pointed out, we have given much to North 
Korea.
    I have no problem with negotiating or meeting with foreign 
powers that we do not like or that we are fearful of or we see 
as threatening. That is why we have diplomats. But you do not 
want to give away things without achieving your objectives.
    There are three pillars to the maximum pressure and 
engagement policy or three pillars of the pressure component: 
sanctions, deterrence, and diplomatic isolation. Unfortunately, 
the Administration has undermined all three of those pillars, 
as you pointed out with cancelling the military exercises, the 
lack of fully enforcing sanctions, as well as now embracing a 
purveyor of crimes against humanity describing him as honorable 
and loving his people.
    So in many ways, we have walked backwards from what I think 
in the beginning of the Trump administration had been a focus 
on pressure. In the first 18 months of the Trump 
administration, they sanctioned 156 North Korean entities that 
is more than was done in 8 years under the Obama administration 
of 154. It is not a perfect analogy or metric. But since 
Singapore, we have only sanctioned I believe 15 or so. So there 
has clearly been a falling off of enforcing our laws since the 
Singapore summit.
    Senator Gardner. Ambassador King or Dr. Terry, do you want 
to add to that?
    Dr. Terry. Well, I would just agree that we--you know, I am 
hard pressed to say what we have gained because that remains. 
And maybe now that we have certain--at least President Trump 
has established some sort of a personal relationship with Kim.
    And in theory, I am also sympathetic to the argument that 
we should have had that meeting at the highest level because, 
to be fair, nothing has worked since the early 1990s. We have 
tried bilateral negotiations and agreements, multilateral 
negotiations and agreements, many working level agreements, and 
it did not work out. So in theory, it makes sense for the two 
leaders to try it.
    But again, at the end of the day, it has been now 2 years 
since Singapore, and we have not really gained much at all. In 
fact, I think we have given North Korea some legitimacy.
    Senator Gardner. And thank you. And that is the reason I 
asked that series of questions because maximum pressure was 
working. It was showing results. We were moving in the right 
direction. You had a global consensus with Russia and China 
doing more than they ever had together, and then now we see 
things that we have given to North Korea and North Korea 
continues to ask for things, but North Korea will not show good 
faith and good will. And so it is hard to understand why we 
would move away from maximum pressure when even when things 
have been given to North Korea, they fail to provide a good 
faith return. So thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Dr. Terry, does it send the right signal to North Korea for 
the Trump administration to rule out any head of state level 
engagement this year?
    Dr. Terry. For the Trump administration, if they were to 
rule out, I think it will be giving the right signal to North 
Korea to say no more head of state meetings, summits without 
making progress.
    Clearly, it was really surprising to me when they actually 
sat down in Singapore what was produced. As you know, what was 
produced out of Singapore was an aspirational statement. My 
colleague, Bruce Klingner, just talked about how we do not even 
have a definition on denuclearization, what it means. So again, 
what we got from Singapore is an aspirational statement. The 
Hanoi summit has failed. So we have not made any kind of 
progress----
    Senator Markey. So you are saying no more summit----
    Dr. Terry. No more summit unless----
    Senator Markey. --until there is some concession made by 
the North Koreans.
    Dr. Terry. Absolutely.
    Senator Markey. Do you agree with that, Mr. Klingner?
    Mr. Klingner. Yes, I do. I was not in favor of doing a top-
down approach. I am more of a traditionalist of having progress 
at the working level. But having the summits at least did test 
the hypothesis that many had said was if only the U.S. leader 
would meet with the North Korean leader, all of this would be 
solved. We tried it several times. It has not worked.
    So I think we should hold in abeyance any additional 
summits until there is working level talks. But we have only 
had 8 days of talks between the North Koreans and the U.S. 
since Singapore because North Korea continues to refuse 
diplomacy.
    Senator Markey. And do you think that President Trump 
should make it clear that ballistic missile launches of any 
length are unacceptable to our country?
    Mr. Klingner. I believe so. They are all violations of U.N. 
resolutions.
    Now, in the past, there has been sort of a hierarchy of 
responses by the international community. Nuclear tests, ICBMs 
have a stronger response, and intermediate and others. But with 
the 26 that were done--25 short-range, one submarine-launched 
medium-range--all of them are violations. We should have 
declared that these are counter to not only the U.N. 
resolutions but the spirit of the negotiations we were having, 
that they are threatening our allies and our forces stationed 
there--North Korea is making progress on additional weapons--
and that it would make us rethink our self-imposed restrictions 
on military exercises and law enforcement.
    Senator Markey. So, Dr. Terry, there was a ``go big'' 
approach in Hanoi. Is there something to be said for something 
that is more modest in terms of a freeze between the United 
States and North Korea?
    Dr. Terry. That is what I said earlier in the written 
testimony and what I said earlier in theory I would agree to 
it. I would say an interim deal is a potential possibility, but 
again only if North Korea shows that it is serious about even 
implementing the interim deal. That is the problem. They do not 
even agree to----
    Senator Markey. What does it say that they have not even 
given us an inventory of what they have?
    Dr. Terry. Right. They will not even give us--have not 
given us a----
    Senator Markey. So, I mean, that is the first step. It 
should be something that is simple to do.
    Dr. Terry. Absolutely.
    Senator Markey. What does it say to us that they will not 
even take that step which does not even relate to----
    Dr. Terry. That North Korea is not serious about giving up 
any part of the nuclear program.
    So while I am sympathetic to the argument, why not go for 
an interim deal that at least caps the nuclear missile program, 
that would at least reduce the threat, the problem is we had 
multiple agreements with North Korea in the past, and every 
single time they fell apart over verification. So without a 
declaration of their inventory, without them agreeing to have 
IAEA inspectors in, we are not going to have that kind of 
verification we need.
    Senator Markey. Yes.
    So, Mr. Klingner, Kim's plan is clearly, well, look it, 
they said Pakistan cannot have them and they got over that. 
India cannot have nuclear weapons. They got over that. China 
cannot have nuclear weapons. They got over that. They are going 
to get over this too.
    So if that is the plan--and I think it is the plan--is an 
increase in sanctions not something that makes it clear that 
that is not going to be acceptable, the only way in which we 
can ultimately get them to the table? Or else Donald Trump is 
setting this thing up for an acceptance of this program without 
concessions having been made by the North Koreans.
    Mr. Klingner. North Korean officials have told U.S. 
officials, as well as Dr. Terry and I, that their goal is to be 
the Pakistan of Asia. So they hope to gain gradual acceptance.
    You know, there is a good debate amongst Korea watchers as 
to whether to do a freeze or go for the big deal. I would 
describe it as sort of a 100-yard agreement implemented in 5-
yard increments or a series of 10-yard agreements. I am more in 
favor of a large agreement where everyone knows the parameters 
of the agreement and what all the responsibilities are like the 
arms control treaties we had with the Soviets. I was head of 
the CIA arms control staff and served on one of the delegations 
overseas.
    But with a freeze, all of the agreements we have had so far 
have been freezes, and all failed. You cannot freeze what you 
cannot see. So we do need verification even for a partial 
agreement. It would send a bad signal I think undermining the 
Non-Proliferation Treaty, and it would be accepting the threat 
to our allies which undermines the viability of the U.S. as an 
ally.
    Senator Markey. And if I may on this round, I look forward 
to the next round.
    Let us talk about the coronavirus. It is already moving 
rapidly through South Korea. Of course, North Korea is called 
the ``hermit kingdom'' for a reason. So we really do not know 
what is going on up there, but it could potentially become a 
very dangerous place if they do not have the health care 
infrastructure and if the disease is inside of their society.
    So, Dr. Terry, could you talk a little bit about the 
coronavirus and North Korea and what concerns you may have?
    Dr. Terry. Well, when I was looking into the North Korean 
internal stability situation, working in the intelligence 
community, one of the key most vulnerable, in terms of the 
instability situation in North Korea, was health care. It is 
nonexistent. Right now, North Korea is denying that they have 
anybody impacted or anyone with coronavirus, and North Korea 
has shut down the border with China. But I do not think it can 
completely block people from illicitly going in and out of 
North Korea. And if there are patients with coronavirus, I 
think this is a significant potential problem in North Korea, 
again dilapidated health care infrastructure. It just does not 
exist. So it is a potentially serious situation with a pandemic 
breaking out.
    Senator Markey. Are you concerned with that as well, Dr. 
King?
    Ambassador King. The one thing that I think we have done 
that has not contributed is our sanctions on nongovernment 
organizations operating in North Korea. It has been very 
difficult for NGOs to go to North Korea to be able to put 
resources in there.
    If we are going to help the North Koreans deal with what 
could be a very serious problem with coronavirus, we need to 
allow Americans and others who are involved in dealing with 
this kind of a problem to move materials there, to go there 
physically without the kind of obstacles and obstructions that 
they face in doing that. The NGOs play a very important part in 
the health care system in North Korea.
    Senator Markey. Would you make an offer right now of 
humanitarian aid to North Korea from the United States or U.N. 
if they need it?
    Ambassador King. That would be appropriate. I would be 
careful about making an offer without knowing exactly what 
might be considered. The main thing we need to make sure is 
that if we are providing humanitarian assistance, we know what 
is going in and we know how to monitor where it is being 
delivered.
    Senator Markey. Okay, good. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you.
    And just to follow up on Senator Markey's coronavirus 
question, we had the Minister of Defense of South Korea in 
Washington today. In discussions with him about coronavirus, 
not only has it and will it affect the exercises in South 
Korea, it has apparently affected North Korea military 
exercises. Are you picking that up as well?
    Mr. Klingner. Every year North Korea goes through a winter 
training cycle. It is very large. It begins in December. It 
moves out of garrison in January. It usually culminates in a 
corps level or so exercise in March or April. Last year, 
General Abrams, our commander on the peninsula, said that it 
involved a million troops, perhaps the largest ever. I have not 
seen leaked intelligence reporting about the status this year, 
but it would be scheduled for this time of year. But they did 
cancel a large military parade in February----
    Senator Markey. North Korea did.
    Mr. Klingner. North Korea did. So North Korea may be 
curtailing its winter training cycle. I just have not seen 
information yet.
    Senator Gardner. Thank you.
    Mr. Klingner, you had said--and I want to go back to what 
you said. You said there have only been 8 days of talks between 
North Korea and the United States since the Singapore summit. 
Is that correct? Is that what you said?
    Mr. Klingner. Yes. U.S. officials told me that.
    Senator Gardner. So Steve Biegun was appointed as the U.S. 
Special Representative for North Korea in 2008, and now he has 
been sworn in as Deputy Secretary of State. This was just a 
couple months ago. Alex Wong, the Deputy Special Representative 
for North Korea, has now been nominated to be the alternate 
U.S. Representative for Special Political Affairs at the United 
Nations.
    Who is now leading--who do you look to as leading the 
Administration's North Korea policy?
    Mr. Klingner. I am uncertain, sir. I do not know that a 
point of contact has been designated since Mr. Wong's new 
position has been announced.
    That has led some to say that the Administration is putting 
North Korea on the back burner, they do not care about North 
Korea. I think we do need to put the onus on Pyongyang for 
being the one that refuses dialogue. I am sure if they were to 
say they are willing to come back to working level talks, 
either Mr. Biegun or Mr. Wong would gladly show up for 
meetings. But I think the Administration should designate a new 
point of contact for North Korea.
    Senator Gardner. Thank you.
    And I think that goes to the heart of this question. If 
North Korea again is demanding relief, demanding concessions, 
yet only willing to negotiate 8 days over the past couple of 
years, failing to return any kind of diplomatic outreach 
efforts, it is hard to believe that they are serious, as Dr. 
Terry has said or you said, that they are not serious.
    The coronavirus--any idea or sense of what South Korea may 
be planning on, Ambassador King? Have you talked to them at all 
about any humanitarian efforts from South Korea to North Korea 
regarding coronavirus?
    Ambassador King. The South Koreans have been very helpful 
to North Korea. They provided substantial assistance in some 
areas.
    The sanctions have limited what they are able to do, but I 
would guess that South Korea would have an interest in terms of 
moving forward on that. I think we should consult with them and 
make sure that we let them know what our thoughts are in terms 
of how best to move forward on that.
    Senator Gardner. Thank you.
    Mr. Klingner, going back to something you had said earlier 
too, you talked about an approach to North Korea that might 
involve a bigger, broader sense of sort of what a package could 
look like in terms of bringing some kind of denuclearization 
effort to them. If you could construct a package that would 
abide by U.S. law that would include the provisions of United 
Nations Security Council resolutions as it relates to North 
Korea, could you structure something that would sort of have a 
sweetened pot, so to speak, that would allow North Korea to 
participate in something like that? So basically it would be a 
measure that would say these are the things you have to achieve 
to abide by international law, U.S. law, complete, verifiable, 
irreversible denuclearization, and then say this is what you 
could have if you constructed that kind of a deal but only if 
you meet these things. I mean, you talked about the 10-yard 
approach, the 100-yard approach. Could you construct something 
like that?
    Mr. Klingner. Well, it is very hard to create a treaty or 
an agreement when they will not talk to you, and then even when 
they have had meetings with Mr. Biegun in Stockholm, they were 
on receive mode.
    Senator Gardner. Have we since Stockholm had any kind of a 
conversation with them?
    Mr. Klingner. There have been some communications, but I do 
not think North Korea has been forthcoming in doing more than 
just saying they refuse to have meetings. So if we can actually 
get to negotiations--and in a way, we have had eight failed 
agreements, and we have not really ever gotten to the real 
point of negotiating North Korea's actual arsenal. We have only 
been talking about their production capability. So they have 
not talked about the arsenal itself. So we need to have, as we 
did in arms control treaties, defining all the terms, having a 
very extensively detailed verification protocol, a destruction 
protocol, identifying everyone's responsibilities.
    And then on the sanctions relief, I would see a distinction 
between the U.N. sanctions and the U.S. sanctions. U.N. 
sanctions are more easily undone by a Security Council vote. 
They are more limited to nuclear and missile activity, and in a 
way they are more tradable in that because they talk about 
trade restrictions, you could have parameters of for every five 
nuclear weapons they give up, they get to export another 
100,000 tons of coal or something like that.
    The U.S. sanctions are much harder to undo. They are law. 
Congress would have to be involved. And they relate to things 
other than just nuclear and missile activity. They relate to 
human rights, law enforcement, money laundering, other crimes. 
So I think they are much harder to undo. And as in sections 401 
and 402 of the North Korean Sanctions and Policy Enhancement 
Act, there are a number of areas, including human rights, that 
North Korea would have to make progress on before U.S. 
sanctions would be reduced. And there are some that can never 
be reduced because they are law enforcement.
    Senator Gardner. Thank you.
    Dr. Terry, if you could comment on that. Could you 
construct some kind of a 100-yard agreement, so to speak, that 
would provide all the accountability or accountability under 
either U.N. or U.S. law--I would say both--and yet have a pot 
sweetened enough that North Korea would agree to it? It would 
take significant buy-in from Congress.
    Dr. Terry. Unfortunately, I think we are a very long way 
off from that because, as you know, we do not even have an 
agreed upon definition on what denuclearization means as a 
beginning step. And I am truly convinced that Kim Jong-un is 
not interested in any kind of dialogue or a negotiation this 
year. I think they are watching very closely what is happening 
domestically--this is an election year--and seeing if President 
Trump will get reelected. They are biding their time. And for 
them, I think it is impossible. For them, it is hard to return 
negotiations without sanctions relief. Again, I think a 
potential deal is possible with North Korea this year, perhaps 
before the election, but only if we are ready to give them a 
big sanctions relief.
    Again, we need a definition, but if I am envisioning some 
sort of deal with North Korea, they must agree to actually a 
definition on denuclearization, what that means, and then 
provide a declaration, a road map of implementation, and 
agreement to verification.
    In terms of sanctions relief, at least in Hanoi, what we 
were willing to offer in the beginning was let South Korea get 
the exemption they need from the United Nations to restart the 
joint inter-Korea projects. That would have been the easiest 
way to start something. South Korea was looking to work on the 
railroad project. South Korea was potentially looking into 
opening Kaesong. There would be still a violation of United 
Nations Security Council resolutions, but it would be something 
that will be at least start that South Korea is beginning and 
not us. But again, I think it is just very difficult to get 
there right now.
    Senator Gardner. Thank you. I will follow up on this line 
of questioning.
    Senator Markey.
    Senator Markey. Again, thank you.
    I led a senatorial delegation in August of 2017 to Dandong, 
and I could see the bridge between Dandong and North Korea, 
which was clearly a pathway for legal and illegal commerce 
between the two countries. Is that bridge shut down right now? 
All of that commerce is now blocked by China. Is that correct?
    Dr. Terry. Well, it is right now shut down because North 
Korea also asked China to shut down because of the coronavirus.
    Senator Markey. That is what I am saying to you. It is all 
shut down right now.
    Dr. Terry. I believe it is. Yes.
    Ambassador King. The only aid that goes in is medical aid, 
and they do allow it to go through but only through Dandong. 
Other areas have been shut down.
    Senator Markey. Okay. Everything else has been shut down. 
Interesting.
    And is there significant medical aid going in? It looks to 
me like China does not quite have enough for its own people. 
Are they providing large amounts of medical aid? Are you 
familiar with that issue?
    Ambassador King. It is hard to look down from satellites 
and determine what is going on.
    Senator Markey. No. I appreciate that.
    What President Xi did is really a crime against the public 
health of the world by waiting and waiting and waiting and 
waiting. We are going to live with the consequences of that for 
a long, long time. And I actually wished that President Trump 
had called him on day one and just said let the World Health 
Organization in, allow them in. If you want to be part of the 
World Trade Organization and receive those benefits, you should 
and you have to allow the World Health Organization to go in 
because these diseases are transmitted by trade and travel. And 
if you think you can hide the impacts of this, the rest of the 
world will suffer. So it was a tragic mistake at that moment. 
It should have happened. The United States should have been the 
lead. They should have demanded from Xi a response that allowed 
for this virus to be isolated very early on to allow the 
experts of the world to arrive from WHO. They did not do it. 
That is why I am asking the question about North Korea because 
they will not have the infrastructure to be able to deal with 
it.
    Yes, Mr. Klingner.
    Mr. Klingner. In the past when South Korea offered 50,000 
tons of rice, North Korea refused it. They have closed their 
borders. I believe just this week the Brits offered 
humanitarian assistance or medical assistance, and North Korea 
refused it. And I think there may have been cases in recent 
weeks where they turned down offers of humanitarian assistance.
    Senator Markey. I think that Kim is taking the same 
approach which Xi took for the first month. And ultimately 
over-confidence breeds complacency and complacency breeds 
disaster. And I think, unfortunately, that could be what the 
pathway is that North Korea follows as well. Hopefully they can 
isolate themselves. That would be good for their people and 
good for the world. But I am concerned.
    I would like to address an unforced error by President 
Trump that Chairman Kim is surely celebrating. Members of both 
parties here in Congress value deeply our alliances with South 
Korea and Japan. In April, Senator Gardner and I cosponsored a 
resolution to honor the U.S.-South Korea alliance. Now I see 
President Trump trying to extort our ally to pay for security 
that benefits both our countries, demanding that Korea increase 
its payments by upwards of 400 percent. I see our military now 
issuing furlough warnings to almost 9,000 civilian South Korean 
employees who support our troops. If that was not insulting 
enough, President Trump at a political rally last week, 
disparaged the cultural contributions of South Koreans.
    Dr. Terry and Mr. Klingner, how are these actions perceived 
by the leadership and people in South Korea? And how can the 
United States encourage burden sharing without an all-out 
shakedown of our allies in East Asia?
    Mr. Klingner. It has hit very hard in South Korea. The 
conservative media in South Korea, which is usually very strong 
supporters of the alliance, have called into question the 
continued viability of the U.S. as an ally. Conservative 
legislators in the National Assembly have also raised the same 
concern that these demands could trigger a resurgence of anti-
Americanism. There are polls in South Korea which show very, 
very strong support for the alliance, but very strong 
resistance to the kind of increases that the U.S. is demanding.
    In December of last year, Dr. Terry and I, along with our 
counterpart at Brookings, Dr. Jung Pak, wrote a joint op-ed in 
the ``Los Angeles Times'' arguing against the U.S. position on 
seeking exorbitant increases in our cost sharing, the three 
largest think tanks in the U.S. arguing against this position. 
So I think that was hopefully an indication of how the broad 
spectrum of experts and I think officials also see the need for 
seeing alliances as shared values and goals, not money-making 
operations.
    Senator Markey. Well, thank you.
    Dr. Terry.
    Dr. Terry. I think it is some 96 percent of the South 
Korean public is opposed to President Trump's demands, and it 
is really straining the alliance relationship.
    I think what we should encourage is what South Koreans are 
saying, that we should encourage their enhancement of South 
Korea's own defense capabilities, Japan's capabilities. They 
are willing to spend more money. We know that South Korea is a 
top customer of U.S. foreign military sales. Some 75 percent of 
their foreign defense purchases are coming from the United 
States. We should encourage their efforts.
    Right now, there are also three categories of this in terms 
of burden sharing. There is labor for the Koreans who work on 
U.S. bases in logistics and construction of U.S. facilities. 
And the South Koreans are saying, well, before these South 
Korean workers get furloughed, why do we not at least deal with 
that?
    So I think if we can make a modest increase here, we know 
the South Koreans have made an 8 percent increase last year in 
last year's agreement. So if we can work with that, with a 
modest increase, and let South Korea spend money but not 
necessarily on this burden sharing issue but again on 
purchasing U.S. military assets, on them doing more on anti-
piracy operations, I think there is some room for flexibility 
here. I think President Trump's demands are excessive. And 
there is a National Assembly election that is coming up.
    Senator Markey. What is the date of the election?
    Dr. Terry. April 15th. And President Moon is just not in a 
position to make this kind of deal. And even if he agrees to 
the U.S.'s demands, it is not going to pass by the National 
Assembly because it has to pass by the National Assembly in 
South Korea.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Go back to 2016-2017, the Security Council resolutions at 
the United Nations targeted many areas: trade in fuels, access 
to banking, size of diplomatic missions, and shipping. I think 
next month, the United Nations Security Council is going to be 
releasing a 67-page report on the United Nations Security 
Council North Korea Sanctions Committee. That 67-page report is 
going to be released next month. It states that much of the 
illegal coal exports or refined petroleum imports were 
conducted via ship-to-ship transfers between DPRK-flagged 
vessels and Chinese barges.
    We have talked about the 300 sanctions that have been 
recommended but not been implemented. The White House has taken 
no action against a dozen Chinese banks that Congress 
recommended be sanctioned for their dealings with Pyongyang and 
even reversed the Treasury Department's sanctions on two 
Chinese shipping firms. Mr. Klingner, you went through a number 
of individuals.
    Dr. Terry, how would you recommend that we begin rolling 
out these sanctions, if you think that is appropriate? Should 
we just start implementing immediately the 300 sanctions that 
we have no so far? Is that something that you would recommend?
    Dr. Terry. I think the U.S. should be implementing the law. 
We need to focus on enforcing the sanctions, as I mentioned 
earlier in my testimony. And there are many ways to just 
continue to implement.
    And there is another issue with China and Russia, as you 
have seen, are also relaxing sanctions. They are not 
implementing in full force as we have seen in the fall of 2017. 
There are all kinds of reports out there, including the 
laborers and allowing ship-to-ship transfers.
    So I think right now the focus--I do not know about rolling 
out the new entities, new designations. Just beginning with 
implementation of sanctions I think should be the beginning.
    Senator Gardner. Mr. Klingner.
    Mr. Klingner. I was critical of the previous Administration 
for what I called timid incrementalism in enforcing sanctions 
where law enforcement really had been negotiable. It was as if 
the mayor of a city is told by the police commissioner that he 
has evidence for 100 bank robbers, he could arrest tomorrow, 
and the mayor says ``I will be bold against crime and I want 
you to arrest five for every time another bank is robbed.'' 
Well, if you have the evidence, why are you holding back? So 
you can make a case of holding it abeyance in order to get them 
back to the negotiating table, but we have been trying that for 
over a decade and it has not worked.
    I tend to believe the adage of justice is blind. If you 
have the evidence, you should go after those that are violating 
U.S. laws, particularly those that are in violations of the 
U.S. financial system.
    Senator Gardner. Ambassador King.
    Ambassador King. Mr. Chairman, one of the things that I 
think has been unfortunate is that we have denigrated the role 
of the United Nations. North Korea is far more dependent on 
China, far more dependent on Russia than they are on the United 
States. But we have tried to use unilateral sanctions to move 
forward on these issues, and there are some things we can do to 
encourage Chinese banks and Chinese institutions to do what we 
would like to see them do. We are not doing enough in terms of 
our diplomacy. We are not doing enough to press the Chinese, to 
urge the Chinese to move in that direction. Our downgrading the 
United participation in the United Nations has not helped in 
terms of our ability to do that.
    A huge amount of trade--80 to 90 percent of the trade that 
goes to North Korea goes through China. And we are trying to 
control sanctions. We are trying to impose sanctions when we 
are not the ones that are involved in sending the materials 
that we are sanctioning.
    I think we need to spend a lot more effort in terms of 
upgrading what we do through the United Nations and making that 
much more effective. We have a new U.N. Ambassador in New York, 
not a member of the cabinet. This is not a positive sign in 
terms of how we ought to move forward.
    Senator Gardner. Ambassador, with the workers Russia and 
China were supposed to repatriate, so to speak, back to North 
Korea, Russia--there have been reports that they may have 
gotten around some of that return by reclassifying visas as 
educational visas or tourist visas. Do you have an idea of what 
percentage that could represent of the workers that were either 
in Russia or China?
    Ambassador King. I think that is a minor way of doing it. 
These are countries that have no problems at all with violating 
the law and doing what they want to. If they keep them there, 
they will keep them there.
    There are some efforts to make progress in that direction, 
but again, we have got to work more closely diplomatically with 
those countries to press them. China and Russia have no 
interest in seeing a North Korea with nuclear weapons, and if 
we can work the effort diplomatically, there are a lot of ways 
that we can move forward on that. But we have got to strengthen 
our efforts in the U.N.
    Senator Gardner. Thanks, Ambassador.
    Dr. Terry, Mr. Klingner, we talked a little bit about this, 
different ways forward, paths forward with North Korea. Some 
people have talked about recently a freeze on North Korea's 
nuclear weapons program, ICBM production. Some argue that the 
United States should abandon the expectations of total 
denuclearization, accept a cap on North Korea's arsenal, and 
sort of keep a status quo in place. Other argues that a 
production freeze would be an interim step toward eventual 
denuclearization.
    Could you talk a little bit about your opinion on this 
freeze idea, if you would, Mr. Klingner?
    Mr. Klingner. I talked about some of the aspects. I mean, 
it is a debate amongst Korea watchers, and some have said it is 
unrealistic to think that North Korea will ever denuclearize, 
so therefore abandon it and just accept capping the problem. 
Others will say it is an interim step towards eventual 
denuclearization.
    I am more comfortable, as I said before, with an agreement 
where you have defined the end zone because if you do not 
define the endpoint, you are not likely to get there. So I am 
more comfortable with clearly delineated responsibilities for 
all the parties.
    A freeze would be less than North Korea is already required 
to do under the 11 resolutions, as well as U.S. law. We have 
tried freezes. They have failed. All eight agreements were in 
some form or another a freeze. You would need to still have on-
site inspection because you cannot verify, you cannot freeze 
what you cannot see. And one provision of that would be short-
notice challenge inspections of non-declared facilities. And it 
may be an acceptance of North Korea as a nuclear power, that 
is, it remains a threat to our allies, if not the United States 
itself.
    Senator Gardner. Dr. Terry.
    Dr. Terry. So I think one of greatest risks of such a deal 
is that it will not lead to denuclearization, but it will lead 
to North Korea being accepted as a nuclear weapons power, which 
we talked about earlier. That is North Korea's main goal, is to 
sort of follow the Pakistan model.
    So I think there is a risk also of once we accept that, 
that North Korea is a nuclear weapons power, what is the risk? 
We have risk of regional proliferation. South Korea is not 
always going to be on the progressive government. Hardliners in 
South Korea already talked about bringing tactical nuclear 
weapons back in Seoul or potentially going nuclear. So we have 
to worry about South Korea potentially going nuclear in the 
future, Japan going potentially nuclear in the future. So there 
is a serious regional proliferation risk, never mind that I 
still think it is going to be hard to get to an interim deal 
with verification. Every deal fell apart in the past over 
verification.
    Senator Gardner. Thank you.
    Senator Markey.
    Senator Markey. Thank you again, Mr. Chairman.
    On Friday, I understand that Red Cross received a U.N. 
sanctions exemption to send 10,000 test kits, 10,000 pairs of 
gloves, and 4,000 masks into North Korea.
    Ambassador King, what are currently the most difficult 
obstacles for legitimate humanitarian organizations to overcome 
if they want to help North Korea? I am especially interested in 
how you prioritize the following barriers: travel restrictions 
for individual humanitarian workers, restrictions on goods or 
components of those goods that need to be transferred into 
North Korea to complete humanitarian projects but especially 
here with coronavirus, and three, restrictions on dealing with 
sanctioned North Korea individuals in the course of legitimate 
humanitarian work. So if we were to go in or we would want to 
go in, the world would want to go in, how do you evaluate these 
obstacles?
    Ambassador King. The biggest hammer the U.S. has in terms 
of enforcing these kind of sanctions is our banking system. It 
is very difficult for anyone to pay for goods to be sent to 
North Korea because of the way we control those transactions. I 
would say that is number one.
    Travel for Americans is fairly difficult. It is not that 
much of a problem for others, although North Korea is not 
welcoming people right now because of the coronavirus problem. 
Travel is a problem because people need to be on the ground and 
know how their aid is being used and provide technical 
assistance in terms of how to use it, but also the reassurance 
that it is being used properly and going to the right persons 
that are in need.
    In terms of goods and components, there are problems 
shipping materials in because of the sanctions, and we need to 
work to make sure that these kind of things can be sent in.
    Senator Markey. Thank you.
    So we need to both pressure and engage to make diplomatic 
progress, and that is why Senator Gardner and I worked together 
to reintroduce the LEED Act. It aims to close yawning gaps in 
sanctions enforcement, including by empowering other countries 
to better detect evasion.
    We were motivated by warnings from the U.N. Panel of 
Experts on North Korea that even a year ago, there were severe 
deficiencies in the global pressure campaign including, quote, 
``a massive increase in illegal ship-to-ship transfers of 
petroleum products and coal.'' Press reports suggest that this 
year's forthcoming panel of experts report is unlikely to 
inspire any confidence in the sanctions regime.
    Yet, despite longstanding evidence of deficiencies, the 
Trump administration has failed to adapt its enforcement. In 
fact, pressure has dropped off considerably. In 2018, the Trump 
administration added to our sanctions list a total of 116 
companies, individuals, and vessels. That same number in 2019, 
only 13 new individuals and companies. That is an 88 percent 
drop from 2018 and far below 2015 and 2016 levels.
    So given that we know North Koreans are skilled at 
sanctions evasion and adaptation, would we not expect that a 
functioning pressure campaign would involve regularly listing 
new people, front companies and vessels involved in that 
evasion? Mr. Klingner?
    Mr. Klingner. Very much so. Sanctions enforcement is a bit 
like a bucket of water with a hole in it. When North Korea has 
entities sanctioned, they simply shift to another entity like a 
criminal organization does. So you have to keep putting more 
water in just to keep even at the same level.
    So when I think of how the U.S. imposed I believe $7 
billion or $9 billion in fines on British and French banks for 
money laundering for Iran, we have so far imposed zero dollars 
in fines on any Chinese bank for money laundering for North 
Korea. So the four largest banks in the world, which are 
Chinese, may be too large to identify as a primary money 
laundering concern, but they can have significant fines imposed 
on them and other Chinese banks. If they are found to be 
complicit with North Korea, they can be identified as money 
laundering concerns. We have not done that.
    On shipping, we could do what the Southern District of New 
York prosecutors are doing to the Wise Honest ship where it 
seized, forfeited and sold for scrap. We can do that to other 
ships of North Korea or China. We can go after those shipping 
companies. In March of 2019, we sanctioned two Chinese shipping 
companies even though we knew much more were in violation, and 
then we reversed that action.
    Senator Markey. I see the direction you are going, and I 
think Senator Gardner and I agree.
    Just for the panel, if you can quickly yes or no, do you 
agree that military action is not an appropriate response to 
new North Korean tests or technological advances? Ambassador 
King.
    Ambassador King. Military action is not usually productive, 
and we do not need to get something started like that in North 
Korea.
    Senator Markey. Good. Thank you.
    Mr. Klingner. Dr. Terry, Dr. Pak at Brookings, and I wrote 
another op-ed 2 years ago arguing against preventive attack. We 
should always have retaliatory or preemptive options, but not a 
preventive attack option.
    Senator Markey. But if there is a new North Korean test or 
technological advance, would you consider that to be something 
that would justify an actual military attack?
    Mr. Klingner. I do not think we should do a military attack 
to prevent North Korea from completing a program that they 
likely already have completed.
    Senator Markey. That is beautifully stated.
    And you agree with that, Dr. Terry? I just want to move on. 
Do you agree with that?
    Dr. Terry. Yes, I agree.
    Senator Markey. Okay, good. Thank you. I am just trying to 
wrap up here because the roll call is going to go off.
    I will just finish up with you, Dr. King. Under your 
leadership, the United States was able to add North Korea's 
human rights record to the U.N. Security Council agenda, having 
worked through the U.N. Human Rights Council to launch a 
commission of inquiry in 2013. While the council is rightly 
concerned about North Korea's weapons of mass destruction 
programs, should the United States also use it as a forum to 
raise human rights issues as we did through 2017?
    Ambassador King. Absolutely. There is no question that 
human rights does threaten peace and security. It is an 
appropriate topic for the U.N. Security Council to take up. I 
would hope the Security Council will continue to take that up. 
The United States needs to be involved with the U.N. on these 
human rights activities. We need to be a member of the Human 
Rights Council. We need to be active in the General Assembly on 
pressing these issues.
    Senator Markey. A wonderful panel, Mr. Chairman.
    Senator Gardner. Yes. Thank you, Senator Markey, for your 
participation today.
    Thanks for all of you for attending today's hearing and the 
witnesses for providing your testimony and responses.
    For the information of members, the record will remain open 
until the close of business on Thursday, including for members 
to submit questions for the record. I kindly ask the witnesses 
to respond as promptly as possible, and your responses will be 
made a part of the record.
    With the thanks of this committee, the hearing is now 
adjourned.
    [Whereupon, at 3:41 p.m., the hearing was adjourned.]
    
                           [all]
</pre></body></html>
